<html>
<title> - A REPORT CARD ON HOMELAND SECURITY INFORMATION SHARING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
         A REPORT CARD ON HOMELAND SECURITY INFORMATION SHARING

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

                           Serial No. 110-141

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-454                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair

Norman D. Dicks, Washington          David G. Reichert, Washington
James R. Langevin, Rhode Island      Christopher Shays, Connecticut
Christopher P. Carney, Pennsylvania  Charles W. Dent, Pennsylvania
Ed Perlmutter, Colorado              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2

                               WITNESSES
                                Panel I

Sheriff Leroy D. Baca, Los Angeles County Sheriff's Department:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Russell M. Porter, Director, Iowa Intelligence Fusion Center 
  and Intelligence Bureau, Iowa Department of Public Safety:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14
Mr. John McKay, Professor from Practice, Seattle University 
  School of Law:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                                Panel II

Mr. Charles E. Allen, Under Secretary, Office of Intelligence and 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Mr. Michael E. Leiter, Director, National Counterterrorism 
  Center:
  Oral Statement.................................................    57
  Prepared Statement.............................................    60


         A REPORT CARD ON HOMELAND SECURITY INFORMATION SHARING

                              ----------                              


                     Wednesday, September 24, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Dicks, Langevin, Carney, 
Reichert, Shays, and Dent.
    Ms. Harman. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
``A Report Card on Homeland Security Information Sharing.''
    Earlier this month, we all sent our greatest American 
assets, our children and our grandchildren, back to school. One 
of the first things that new students need to do each year is 
to reflect upon what they have learned the prior year. This 
adage might also apply to Members of Congress, perish the 
thought, and the Executive branch. So, as godmother of the 
Department of Homeland Security and as Chair of this 
subcommittee, I think it is time for the Federal Government and 
Congress to reflect on what has been done to ensure that 
timely, accurate and actionable information is shared with 
America's first preventers.
    Information sharing is a two-way street. While there has 
been some progress in breaking down information stovepipes at 
the Federal level and some promising efforts initiated by State 
and local leaders themselves, much work remains to be done.
    On September 11 of this year, Secretary Chertoff's Homeland 
Security Advisory Council made this clear in a report that 
assessed the top 10 challenges facing the next Secretary of 
Homeland Security. Among other things, the council, headed by 
William Webster, concluded that DHS must strengthen and 
continue to build partnerships with organizations outside DHS, 
such as State, local and tribal governments, as well as the 
private sector. Where have we heard this before?
    The report also cited concerns about the broken 
classification process and recommended that common standards be 
built for fusion centers and that funding be sustained. Where 
have we heard this before?
    These are concerns obviously shared by this subcommittee on 
a unanimous basis, and they are concerns which could impair 
connecting the dots in time to prevent the next attack.
    If anybody thinks that we are home-free here, I would just 
remind us all that last weekend in Islamabad, a city that takes 
great steps to protect its infrastructure and its tourist sites 
and so forth, there was a massive car bomb at the Marriott 
hotel that killed over 50 people and wounded hundreds.
    This subcommittee has been and will continue to be a 
champion for the needs of State and local law enforcement, an 
unusual practice in Washington. We are your champion. We think 
that we are representing you here, rather than representing 
Washington in our own neighborhoods.
    We have demanded that threat information be shared with 
cops on the beat who need it in a form that they can use, while 
also ensuring that information worth sharing is not overly 
classified. We have challenged DHS to help State and local law 
enforcement in their efforts to think about the threats we face 
in a way that can improve their police work by approaching all 
crimes and hazards with a critical eye while also respecting 
privacy and civil liberties.
    We understand that it is a tough assignment, given the 
number of bureaucratic hurdles that exist and the fact that 
America's law enforcement system is highly decentralized. But 
our police and other first preventers are most attuned to their 
local communities and are directly accountable to the concerns 
of those communities. They are the ones, you are the one, not 
some bureaucrat or politician, who will know if something is 
suspicious.
    Our first panel includes first preventers from around the 
country who are on the receiving end of DHS information. Our 
question to you is: Are DHS and its partner agencies creating 
intelligence products that meet your needs? If those products 
aren't perfect, what gaps do you see? The ultimate question 
before us today is: How can we better serve you?
    In a few short months, the President-elect will need to set 
his priorities. Implementing lessons learned on information 
sharing should, in my opinion, be among them.
    I want to thank our Ranking Member, Sheriff Reichert, as 
well as all of our members, some of whom are arriving a bit 
late in this hearing, for their focus and dedication to the 
hard work of our subcommittee of the past 2 years. Many of you 
have traveled with me to see fusion centers around the country 
and the impressive command centers which were stood up for both 
political conventions.
    Some enormously critical and necessary activity is under 
way, and our goal is to nurture and sustain it and to make sure 
that it does comply with privacy and civil liberties needs.
    Millions of schoolkids and their families are depending on 
us to keep them safe. As I mentioned, that recent attack last 
weekend and recent attacks in Yemen and elsewhere and attacks 
planned around the globe remind us that the world remains 
vulnerable. It is up to us and especially up to you to make 
sure that the American public is protected.
    I now yield time to the Ranking Member, Sheriff Reichert, 
for opening remarks.
    Mr. Reichert. Thank you, Madam Chair.
    It is good to be here today. It has been a busy couple of 
weeks, and most of our Members, at least I know on our side 
here, are busy this morning, listening to the Under Secretary 
on some of our economic issues. So I just left that meeting; it 
is still on-going.
    But, first of all, I want to take this opportunity to thank 
you, Madam Chair. This is most likely our last hearing of this 
Congress. I would like to start my remarks by publicly thanking 
you for your bipartisan leadership of this subcommittee and for 
working with me to get many of our priorities through the House 
and into law.
    I also want to applaud you for your willingness to focus on 
the State and local enforcement community, of which I used to 
be a longtime member. It is essential that, going into the next 
Congress, we continue to shine the light on their efforts and 
their needs, because we need them more than ever in the fight 
against terrorists. So thank you very much.
    I also want to take a moment--Mr. Porter, welcome to you--
but I have two great friends on the panel this morning, another 
sheriff that I have had the opportunity to grow to know. We 
attended NEI, National Executive Institute, together. It seems 
like 100 years ago, but I am sure it wasn't that long ago.
    And my good friend, John McKay, who worked hard during the 
time that I was the sheriff, the two of us working together, 
trying to implement a system called the LInX System, which 
would greatly enhance the ability of local law enforcement in 
our community and across the Nation. I know Sheriff Baca is 
also looking at the LInX System as a part of his regional 
security information-sharing system.
    We ran into some difficulties in the Seattle area with 
trying to implement that system, but I will tell you, John 
McKay was a champion for us there and was a great salesman who 
finally brought together local, Federal, State enforcement 
agencies, recognizing the need for us to work together and 
share information. For that, I greatly appreciate his patience 
with me and my skepticism at first in working with a Federal 
Government.
    As we all know, the famous line is, ``I am from the Federal 
Government. I am here to help.'' Sheriffs sometimes don't 
believe that, but now I find myself saying that. So I am hoping 
that local law enforcement and those around the country begin 
to believe that more and more. Because this committee, I know, 
this subcommittee, I know, is very dedicated to bringing people 
together around this country, from the smallest police 
department, smallest sheriff's office, with the State police or 
State patrol and with any Federal agency that has 
responsibility for keeping this Nation safe.
    I was going to read a statement, but I won't do that. It is 
just so essential that we work together, here in Congress, with 
all of you who represent local law enforcement and for those 
who, in the next panel, represent the Federal side of things. 
For this country to be safe, we have to work together, both 
Democrats, Republicans, Federal agencies and local agencies.
    We have made great progress, in my opinion, from when I 
took office as sheriff in 1997 and came here in January 2005. 
Great partnerships and friendships have been developed. I 
really, truly believe, on a personal level, that those 
relationships, those friendships and those partnerships are 
absolutely key in making any system that we put in place, any 
plan that we have in place, any technology that we want to 
share with each other--none of that will work unless the people 
sitting at the table in front of us today make a conscious 
decision that they will be the change agent, that they will be 
the ones holding the responsibility to keep this country safe.
    I thank you all for being here today. I look forward to 
your testimony. Good to see my good friends here.
    I thank you, Madam Chair. I yield my time.
    Ms. Harman. Thank you, Mr. Reichert. Thank you for your 
nice words about our relationship.
    Just what you said to our witnesses applies to Congress, as 
well. If we don't figure out how to work together in a 
bipartisan basis, nothing will happen. I am especially proud of 
the track record of this subcommittee over the last 2 years. We 
have authored a lot of legislation; a lot of it has passed the 
House.
    Just yesterday, we got some progress on your bill, which I 
strongly support, to provide sustained funding for fusion 
centers and another bill, authored by Mr. Perlmutter, which we 
all support, to provide some assist for public sources as a 
critical part of our intelligence information.
    We have two more bills that we are going to push hard to 
get. One is on declassification. I think all of you are going 
to speak to that today; I know you are. Another is on reducing 
the number of pseudo classification markings on Federal 
documents, another critical activity. It seems to us that all 
of these go in the same direction, and that is to help push 
information out, to change a need-to-know culture to a need-to-
share culture. We will not connect the dots if you don't have 
the dots, because you are the ones who will figure out what the 
dots mean.
    So let me say hello to our witnesses, all of whom I know. I 
will now introduce each of you briefly, and look forward to 
your testimony, and then we will ask you questions.
    Let me point out for the record that other Members of the 
subcommittee, under committee rules, may provide opening 
statements for the record.
    Now, let me welcome first my sheriff, Sheriff Lee Baca. The 
last time I saw him was on Venice Beach, California, where he 
and I and Secretary Chertoff did a little R&R early in the 
morning. He is the oldest of the three of us, but he may be the 
most fit; I hate to admit it. But we will catch up.
    At any rate, Sheriff Lee Baca leads the Los Angeles County 
Sheriff's Department, the largest sheriff's department in the 
United States, with a $2.4 billion budget. He supervises over 
18,000 sworn and professional staff who serve over 4 million 
people living and working in 40 incorporated cities, 90 
unincorporated communities and 9 community colleges in southern 
California.
    Sheriff Baca is the director of homeland security-mutual 
aid for California Region I. Among his accomplishments, he 
developed the Office of Independent Review, comprised of six 
civil rights attorneys who manage all internal affairs and 
internal criminal investigations. A strong advocate of 
education, he developed LAFD University in conjunction with 13 
universities, where over 950 of his officers are enrolled in 
bachelor and master's degree programs.
    He earned his own doctorate from the University of Southern 
California.
    Our second witness, Russell Porter, is the director of Iowa 
Fusion Center and Intelligence Bureau and the Iowa Department 
of Public Safety. He is also a member of the Operating Council 
for Safeguard Iowa Partnership, a voluntary coalition of the 
State's business and government leaders who combine efforts to 
prevent, protect, respond and recover from catastrophic events.
    Mr. Porter serves as general chairman of the Law 
Enforcement Intelligence Unit and is a member of the Executive 
Advisory Board for the International Association of Law 
Enforcement Intelligence Analysts. He is also the current 
chairman of the Criminal Intelligence Coordinating Council and 
the Global Intelligence Working Group, which is part of DOJ's 
Global Justice Information Sharing Initiative.
    In addition, Mr. Porter serves as a member of the 
Interagency Threat Assessment Coordination Group, ITACG, 
Advisory Council. He was in San Francisco, I think, a few 
months ago, at a major international conference which I 
attended, which was focused on this same set of issues.
    Our third witness, John McKay, is a professor from practice 
at Seattle University School of Law where he teaches national 
security law and the constitutional law of terrorism. He 
previously served as United States Attorney for the Western 
District of Washington, where he successfully prosecuted the 
terrorist Ahmed Ressam, the so-called Millennium Bomber, 
someone well-known to people who live in and around my 
district, because Ressam, had he been able to enter the United 
States, was intending to come down to Los Angeles International 
Airport, LAX, and blow it up.
    During his tenure, Mr. McKay also oversaw a pilot program 
for an information-sharing network called LInX, which Sheriff 
Reichert has just mentioned, which linked the Naval Criminal 
Investigative Service with State, local and tribal law 
enforcement. For his success with LInX, he earned the United 
States Navy's highest civilian honor.
    He also previously worked as a White House fellow during 
the Bush 41 administration, where he worked as the special 
assistant to the director of the FBI. For several years, he 
served as president of the Legal Services Corporation, a 
private, nonprofit corporation in Washington, DC, established 
to ensure equal access to justice under the law for low-income 
Americans.
    Let me commend you for that, in addition to everything else 
you have done.
    We, the subcommittee, traveled to Mr. Reichert's district 
and we saw Mr. McKay there, as we evaluated the fusion center 
in Washington State. Congressman Dicks was there, and we now 
have Congressman Dicks and Congressman Carney in attendance.
    Without objection, the witnesses' full statements will be 
inserted into the record. I would now ask each witness to 
summarize your statement for 5 minutes, starting with Sheriff 
Baca.

    STATEMENT OF SHERIFF LEROY D. BACA, LOS ANGELES COUNTY 
                      SHERIFF'S DEPARTMENT

    Sheriff Baca. Thank you, and good morning. It is an honor 
to be here to testify before you. I want to compliment all of 
you for the hard work that you have been doing. This is 
certainly something that all of you are familiar with, this 
subject. I will try to make my comments as brief as I can.
    Los Angeles, with the Los Angeles Police Department and the 
FBI and 45 other police agencies, does have a Joint Regional 
Intelligence Center. You know about what the intelligence 
centers are all about. We are fortunate to have a 
representative from the U.S. Department of Homeland Security as 
a part of that operational center. It is an all-fusion center, 
all-crimes. We do an awful lot of work there, but we do need 
help.
    Second, we have a Terrorism Liaison Officer Program that 
connects all of our 45 regional police departments together. We 
have a cop LInX System, along with the LInX System that Mr. 
Reichert was alluding to, that ties together all of the 
southern counties of California, including the metropolitan Las 
Vegas area. That gives us the opportunity to serve 18 million 
people in a network of intelligence gathering, unclassified. Of 
course, the classified section of that is with the FBI.
    We have a California Regional Terrorism Threat Assessment 
Center system, and that is California itself putting together 
three additional regional centers. Fourth, we have a Homeland 
Security Advisory Committee made up of businessmen who are key 
leaders throughout our national and international business 
community.
    Fifth, we have a Muslim-American Homeland Security Congress 
that has the key leaders of the Muslim communities, including 
the Chair of the Sharia Council, as part of a nonprofit 
educational institution to show patriotic support against 
terrorism.
    Sixth, we use in Los Angeles County, in the sheriff's 
department particularly, a public trust policing concept. 
Information is not going to be given right to law enforcement 
officers from sources that do not trust who they are giving 
this information to. So there is a comprehensive amount of 
public trust policing strategies that are necessary to engage 
the public to share what they know.
    Now, let me tell you about the present concerns. Sharing 
information for local operational training, this is really 
where the issue is. A local deputy sheriff or police officer is 
not interested in the source of the information nor the means 
that were used to obtain it. The deputy or officer does need 
the tactic, technique, the procedures and method or resources 
of being reported on to ensure that he or she recognizes the 
precursors of an attack and when the situation is encountered 
on the street. However, without operational knowledge, that 
person may or may not be able to report this to the Joint 
Regional Intelligence Center for analysis and potential piece 
of information that may be missed.
    So, therefore, what we are saying is, take whatever we have 
in the way of specific case intelligence, and scrub it up, and 
allow us to use what is a generalized form of information that 
can help us train ourselves to be better prepared and have the 
street cop in a position where he would have a greater sense of 
what is going on.
    Second, we do need a Department of Homeland Security 
analysis capability in our fusion centers. So we are supporting 
the idea that analysts are critical, but we want DHS analysts 
in our fusion center.
    Third, the security clearances still have to be on a more 
timely basis. When you are dealing with various forms of 
analysis work, whether classified or unclassified, we certainly 
can do a better job in that respect.
    Fourth, the lack of sustained funding for the local JRICs. 
This is a Federal, State and local program, and we pump a lot 
of our own dollars into these operation centers, and we need a 
little more help from the Federal funding source.
    Fifth, the LETPP funds should be administered by the 
assistant secretary for State and local law enforcement. There 
is a constant shifting of prioritization when it comes to local 
funds and local grant programs. We just think that law 
enforcement, as much as being a preventer of terrorism, along 
with a responder to terrorism, should have a lot more priority, 
and the FEMA system is not adequate.
    Sixth, more local input to Federal policy. Currently, local 
leaders do not have enough influence in development of policy 
that we will eventually be tasked to implement. Therein is the 
telling of the story. I have had many discussions with the 
major city police chiefs throughout the United States, 
including the great NYPD. Our common concern is that everybody 
is subject to a set of policies that we don't quite often 
understand. We want to have a greater voice. We are not 
suggesting that we have the total voice.
    Seventh, our national law enforcement agencies must 
function as a nationally policed system. This is where I run 
into a lot of challenge when you are dealing with foreign 
countries, because most nations abroad have a law enforcement 
system that can be construed as a national police model. We 
have 19,000 police and sheriff's departments in the United 
States.
    I will tell you, if our voice is heard in the White House 
or in some higher level of governance, it isn't because we are 
invited in, it is because we basically are needed to be brought 
in. Yet, it should be systemically established that all the 
JRICs, all of the police departments in America and sheriff's 
departments are networked, and you can network these systems 
through the major JRICs throughout the States that are existing 
today.
    Last, let me say this. There has to be an international 
police diplomacy program. I have been to so many countries in 
the Middle East, and in my testimony you will see all of them. 
I have spoken to President Musharraf, I have spoken to King 
Abdullah, I have spoken to the intelligence director of Saudi 
Arabia, including Qatar. These individuals are not reluctant to 
tell us the kind of information we need to know so that we in 
the United States can have a greater sensitivity as to how the 
terrorists are operating in countries that I have mentioned.
    So, clearly, what I am saying is that there is a need to 
expand our international reach through perhaps a committee or a 
group of major-city chiefs and sheriffs, and minor-city chiefs 
and sheriffs for that matter, who would do what has to be done 
to create the inter-communicative skills that we need with our 
counterparts internationally. Currently my department has an 
international liaison unit, and we work 100 consulates.
    Thank you very much.
    [The statement of Sheriff Baca follows:]
                  Prepared Statement of Leroy D. Baca
                           September 24, 2008
    Although more than 7 years have elapsed since the tragedy of 9/11, 
the Los Angeles County Sheriff's Department remains committed to 
institutionalizing the lessons learned that day. Together with our 
Federal, State and local partners, we are aggressively pursuing new 
ways to integrate our disparate agencies into a seamless network of 
information sharing cooperatives. This approach creates a national 
police system that can be respected internationally as well as locally.
    To understand where the Los Angeles County Sheriff's Department is 
headed as a national partner, there must be an understanding of where 
we have been.
             los angeles joint regional intelligence center
    Recognizing the value of cooperation between Federal, State and 
local agencies, leaders from the FBI, United States Attorney General's 
Office, State Office of Homeland Security, Los Angeles Police 
Department, and Los Angeles County Sheriff's Department decided more 
than 5 years ago to join together and create a model for intelligence 
fusion and sharing. The dream became a reality in July 2006, with the 
grand opening of the Los Angeles Joint Regional Intelligence Center 
(JRIC). Using the unique analytical processes originally developed by 
the Terrorism Early Warning (TEW) Group, the efforts of law 
enforcement, fire service, public health personnel, and analysts from a 
variety of agencies and disciplines were combined to create an 
expansive view of trends and potentials which could indicate a pending 
terrorist attack. This information is shared with the ``cop on the 
street'' through such publications as the JRIC Daily Report and the 
monthly ``Force Multiplier'' (a monthly newsletter directed at field 
deputies/officers).
    The United States Department of Homeland Security is also present 
in the JRIC and provides direct connectivity to other Federal agencies 
within their Department. These institutions possess critical 
information that must be synthesized with local products to provide the 
clearest possible forecast of potential threats. In fact, to ensure the 
best possible analysis, I continue to strongly encourage the 
participation of any public agency involved in issues of Homeland 
Security with its local fusion center. The JRIC is unique in that it 
operates independently of its contributing agencies with oversight 
provided by a steering committee of the Los Angeles County Sheriff's 
Department, the Los Angeles Police Department and the Federal Bureau of 
Investigation. This cooperative management team of local and Federal 
partners is a concept designed to overcome the traditional bureaucratic 
inertia in the field of intelligence sharing.
                terrorism liaison officer program (tlo)
    One program operating out of the JRIC that has national relevance 
is the Terrorism Liaison Officer (TLO) program. Originated shortly 
after 9/11, this program seeks to create a network of trusted agents 
within each law enforcement, fire and health agency in Los Angeles 
County. These TLOs are committed to passing critical information from 
the JRIC to their field personnel as well as answering requests for 
information. Numerous leads of investigative interest have been 
generated by local police officers, firefighters and health 
professionals as a result of this program. This level of information 
sharing and connectivity between field personnel and the fusion center 
is unprecedented and has enabled the JRIC to achieve the highest levels 
of situational awareness possible. Information provided by the TLO 
network contributes to the development of intelligence that is 
disseminated weekly to the executive staff of participating agencies, 
field operators and line personnel.
        california regional terrorism threat assessment centers
    The State of California quickly realized the value of such 
intelligence cooperatives and funded three additional Regional 
Terrorism Threat Assessment Centers (RTTACs), which are based on the 
Los Angeles JRIC model.
              homeland security advisory committee (hsac)
    Outreach from the JRIC is not limited to public safety personnel. 
Shortly after 9/11, I established the Homeland Security Advisory 
Council (HSAC) in an effort to network corporate leaders with the work 
of the JRIC. HSAC is comprised of senior corporate leaders from Los 
Angeles and Orange Counties. Its affiliation with the Business 
Executives for National Security (BENS) has greatly benefited both of 
our organizations. Members of the HSAC provide technical, political and 
financial support to our counter-terrorism and emergency management 
missions. Through their large sphere of influence they also provide 
thousands of eyes and ears via corporate security departments who have 
shared dozens of incidents of investigative interest to the JRIC.
           muslim-american homeland security congress (mahsc)
    The world's nations will never win the war against terrorism 
without the diverse Muslim society's participation. To this extent, the 
Sheriff's Department helped form our Nation's first patriotic Muslim-
American, not for profit, organization composed of leaders of all 
Islamic organizations within Southern California. Asians, Middle-East, 
African, and South Asian religious leaders and organizations are the 
leadership core of MAHSC's Board of Directors.
    The executive director of the Shura Council is also on the Board, 
all mosques in Southern California are represented.
    As MAHSC continues to mature, visits to Detroit, Dearborn, Dearborn 
Heights, Chicago, and New York have been made. MAHSC is an educational 
institution designed to fight extremism. As it grows, it will become a 
promising program to acquire organized Muslim-American participation to 
prevent a homegrown terrorist attack.
                         public trust policing
    A fundamental reality of intelligence is the willingness of the 
public to share what they perceive or factually know with those they 
trust. The Los Angeles County Sheriff's Department has extensive 
relationships, advisory councils and programs with diverse people, 
including Muslim-American organizations, citizens and leaders.
    All leaders of these communities can easily reach the Sheriff on a 
24/7 basis. This trust-based attention to details facilitates easy 
access to critical information that often travels through a series of 
people to the public safety community.
                            present concerns
Sharing Information For Local Operational Training
    With all the positive things that have occurred in the past several 
years, there are still lingering impediments to unobstructed 
information sharing between the Federal Government and local law 
enforcement agencies. I applaud the efforts of Congresswoman Harman 
with respect to the issue of overclassification of intelligence. HR 
4806 is a logical response to the Federal Government's tendency to keep 
pertinent information from deputies and officers on the beat.
    The local deputy or officer is not interested in the source of the 
information nor the means that were utilized to obtain it. The deputy 
or officer does need the tactic, technique, procedure, method, or 
resource being reported on to ensure he or she recognizes precursors of 
an attack when encountered on the streets. However; a lack of 
operational knowledge will impact the ability to report such activity 
to the JRIC for analysis, and a potentially vital piece of information 
may be missed. Classification must protect the integrity of National 
Security investigations and the personal privacy guaranteed by the 
Constitution.
    However, I submit that most classified reporting can be 
``scrubbed'' so that crucial operational information is available for 
dissemination to local law enforcement.
Need for DHS Analysis in Local Fusion Centers
    A second shortcoming is the lack of Department of Homeland Security 
analysts available to fusion centers. In the JRIC, we are fortunate to 
have a bright and extremely capable DHS I&A analyst. His input into the 
analytical process is invaluable, but he is only one person. The JRIC 
would benefit from having several DHS analysts. The assignment of 
additional personnel from DHS would be a visible sign of the 
Department's commitment to local public safety while continuing the 
process of breaking down the barriers to information sharing. The 
founding members of the JRIC have committed significant numbers of 
personnel even during times of critical staffing shortages within our 
agencies. Our commitment is proven. We challenge the DHS to match that 
commitment.
Untimely Security Clearances
    Third, the security clearance process is still not timely. 
Routinely, deputies, officers and analysts wait a year to receive a 
National Security clearance that required to have a Top Secret 
clearance prior to employment in the workspace. This was done to ensure 
that classified systems would be available to all personnel in an open 
environment. The lack of a timely background investigation results in 
un-cleared personnel (or those in the process) being excluded from 
access to critical information sharing. For a local agency to augment 
or replace personnel, the clearance process is a disincentive and has 
resulted in a net loss of personnel assigned to the JRIC. I suggest 
that the sponsoring agencies set a reasonable goal of 3 to 6 months to 
complete a background investigation.
Lack of Sustained Funding for Local JRICS
    One other impediment to information sharing is the lack of 
sustained funding for the JRIC. Each year, the JRIC struggles with 
accumulating enough funding from the local participants and various 
UASI and SHSGP grants just to remain functional. In the past, funds 
from the Law Enforcement Terrorism Prevention Program (LETPP) were also 
available as a separate funding source for this purpose. However; with 
the existing grant restrictions on personnel and operational needs, and 
the elimination of LETPP as a separate funding source, the future 
sustainment of the JRIC is uncertain. I believe that only sustainable 
funding through the Department of Homeland Security will ensure the 
critical efforts of the JRIC, and fusion centers across the Nation are 
not in danger of curtailment. Therefore; I am recommending to Congress 
that the LETPP grant be reestablished under the authority and 
administration of the Department of Homeland Security's Assistant 
Secretary for State and Law Enforcement. This will ensure that vital 
funding for our prevention efforts are no longer diluted within the 
existing grant structure, and the future of fusion center operations 
will be secure.
    As an example, there is a critical need for the sustained funding 
of contract analysts and the Terrorism Liaison Officer program 
contained within the JRIC. Currently, there are only two full-time 
personnel assigned to the TLO program.
    These two individuals are responsible for the coordination of 
information flow from 7 counties comprised of 89 independent agencies 
in an area of 8,000 square miles. As you can imagine, this is a near-
impossible task.
LETPP Funds Should Be Administered by the Assistant Secretary for State 
        and Local Law Enforcement
    I propose that with fewer restrictions on the guidelines for LETPP 
(ability to hire personnel), these additional positions can be filled 
to ensure the critical information from the beat cop does not go 
unreported. The administration of LETPP funds under the Assistant 
Secretary for State and Local Law Enforcement's purview will facilitate 
the ability to formulate and implement a suitable national vision for 
law enforcement prevention efforts. A standardized training and 
education program will improve information sharing, as well as serve as 
an effective means to enhance the connectivity among fusion center 
operations across the Nation. Specific funding for strategic planning 
for terrorism prevention for law enforcement on a national scale will, 
in effect, allow the nearly 19,000 police agencies to function as one 
in the Global War on Terrorism (GWOT).
More Local Input to Federal Policy
    The common theme among all of our efforts is the sharing of 
information from police, fire, health, and corporate or community 
sources, which must be analyzed and shared. We have begun to overcome 
the distinction between Federal, State and local priorities. However; 
an issue yet to be resolved is the better integration of local input 
into Federal mandates. Currently, local leaders do not have enough 
influence in the development of policy that eventually we will be 
tasked to implement. We must ensure that policies we are asked to 
foster are not in conflict with local laws, ordinances, or values. Only 
through unified planning and policy development with direct 
participation by local authorities can the legitimate policy be 
developed. I believe that all available means whether technological, 
social, political or operational must be considered in order to ensure 
that the events of 9/11 are not repeated. I fully support Congresswoman 
Harman's call to replace the intelligence community's requirement of 
the ``need to know'' with the ``need to share.''
Our Nation's Law Enforcement Agencies Must Function as a National 
        Police System
    As the elected leader of the Los Angeles County Sheriff's 
Department, I am committed to expanding cooperation with all Federal, 
State and local agencies in our efforts to combat terrorism. The 
citizens of Los Angeles County and the Nation deserve a secure 
homeland. No single entity can provide that security. Only by working 
together in a collaborative, mutually supportive environment can we 
provide the security we all felt prior to September 11. Our Nation, 
Sheriff and police department and Federal agencies must function as a 
national police system when it comes to international crime such as 
terrorism.
International Police Diplomacy
    The Sheriff's Department, the N.Y.P.D., and the L.A.P.D. have 
engaged in extensive international police relations activity. America 
has no national police. Major counties and cities are doing this work.
    To further effective counter-terrorism strategies, I have met with 
key political and police leaders of Pakistan, Jordan, Israel, Saudi 
Arabia, Qatar, Turkey, Azerbaijan, Armenia, England, Italy, France, 
Sweden, the Netherlands, China, Taiwan, Russia, and Canada. These 
contacts are invaluable for best practices development, cross-country 
training and technology support.
    The Sheriff's Department has an International Liaison Unit that 
interacts with more than 100 consulates in Los Angeles County. My 
strategy is to work closely with our foreign partners in the fight 
against terror. Assistant Secretary Ted Sexton traveled with me to 
Pakistan.
    Our Nation must lead in trust-based solutions with other nations 
and not leave local major counties and cities behind as we build a 
global solution with local applications of success. I thank you for the 
opportunity to address the committee.

    Ms. Harman. Thank you, Sheriff Baca.
    Mr. Porter, you are recognized for 5 minutes.

  STATEMENT OF RUSSELL M. PORTER, DIRECTOR, IOWA INTELLIGENCE 
   FUSION CENTER AND INTELLIGENCE BUREAU, IOWA DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. Porter. Madam Chair, Ranking Member Reichert, Members 
of the subcommittee, thank you for convening this hearing and 
for all of your important work. I appreciate it very much. I 
appreciate this opportunity to provide you with a perspective 
of a local and State law enforcement person of 30 years' 
experience, 24 of which are assigned to the intelligence 
discipline.
    Earlier this month, I informally surveyed members of the 
Law Enforcement Intelligence Unit, the oldest association of 
law enforcement intelligence units in this country, as well as 
fusion center directors. I asked them to share their views as 
it relates to what works, what needs improvement and what kind 
of recommendations they would offer as a way forward. Those are 
detailed in my written statement, but I do want to highlight a 
few of those this morning in my remarks.
    First of all, for what works: As a community, we have seen 
incremental but significant improvements in many areas of 
homeland security information sharing: leveraging of existing 
programs; certainly there has been a great emphasis on privacy 
and civil liberties protection and training in that area, which 
is critical to our success. We have to do that and make it 
first things first. There has been development of regional 
meetings and the development of personal contacts across the 
country to strengthen the fabric for information sharing; and 
co-located environments that have facilitated information 
sharing.
    I want to highlight a couple of them, though, that are 
particularly salient and relevant for what works. One of them 
is the outreach that has been done by the Terrorist Screening 
Center. The Terrorist Screening Center, since the National 
Fusion Center Conference that was held in March in San 
Francisco, as the Chair pointed out, has started an outreach to 
State and local fusion centers to provide them with an 
aggregate picture of the Terrorist Screening Center hits, the 
positive hits that are occurring within their jurisdiction. 
This provides a great situational awareness for those 
jurisdictions, and it has been a very positive thing toward 
what works.
    A second item I wanted to highlight is the Homeland 
Security State and Local Intelligence Community of Interest, 
which is run by DHS's Office of Intelligence and Analysis. This 
is a network primarily of State and local fusion center 
analysts in 45 States, the District of Columbia, and seven 
Federal agencies, who share sensitive homeland security 
information and analytic products on a daily basis through a 
secure portal, but they also teleconference once a week to 
share information in that context, which forms this community.
    By all accounts provided to me by my colleagues around the 
country, those who participate in the HS SLIC, as it is called, 
find it to be a highly valuable initiative. Many of the 
participants attribute the success of this initiative to the 
dedicated staff members that are assigned to it. But I will say 
it is a limited community in its size. These are key people who 
participate, but it is a smaller group.
    One of the good things about that particular system is they 
have started to leverage other existing capabilities that had 
already been developed to integrate that with other systems. I 
will give you an example. When you log in to this particular 
system, you can not only use the HS SLIC log-on and 
authentication procedure, but you can also use something called 
the Global Federated Identity and Privilege Management, or 
GFIPM, framework, which was developed by Global, mentioned 
earlier by the Chair. So that has been a positive entity that 
helps share information and is starting to streamline some of 
the access points.
    What can be improved? My colleagues pointed out several 
challenges to information sharing.
    First of all, and the one that was a strong, consistent and 
emphatic theme: Uncertain sustainment funding for fusion 
centers. Local and State officials have raised this 
consistently as perhaps the most significant threat to 
effective homeland security information sharing.
    In fact, I will read one quote from one fusion center 
director. ``Frankly, our fusion center is coming down to the 
wire regarding the 2008 grant. Our local agencies, who have 
staff in the fusion center, have told us if they are held to 
the requirement of promising to sustain staff beyond the 2008 
grant period in order to accept funding, then they will opt 
out.''
    The House of Representatives has responded by passing H.R. 
6098. Thank you. But we have not heard anything regarding 
movement in the Senate on this issue. For our fusion center, 
time is running out, with a pending deadline for the local 
agencies to make application and no idea yet what to tell them, 
other than, ``There has been no change.'' This poses a serious 
threat not only to the existence of fusion centers, but to 
strong information-sharing across the country.
    A second theme that our colleagues pointed out was a 
continued lack of coordination across and among national 
information systems. Many local and State officials decry the 
multitude of systems that the local and State agencies must 
access to use and stay informed. Ultimately, it results in 
inefficiency and information overload.
    National security clearances continue to be raised as an 
issue, in terms of the time that it takes to get them; the 
reciprocity issue; and also the overclassification issue.
    Similarly, a respondent shared his concerns that some in 
the Federal Government believe incorrectly that they are 
sharing information widely with State and local law enforcement 
through classified channels, such as HSDN and NCTC Online. But 
unfortunately most law enforcement agencies in this country do 
not have those systems, and many in the local and State 
communities believe that they never will.
    Here were the recommendations that my colleagues offered, 
and I will highlight just a few of those.
    First of all, support and build on the existing 
partnerships and systems that have been effective. These 
include things like the Global Justice Information Sharing 
Initiative and the Criminal Intelligence Coordinating Council, 
as well as HS SLIC that I mentioned earlier.
    Continue to make the protection of privacy and civil 
liberties a top priority. As we continue to establish a 
national integrated network of fusion centers, it is essential 
that we put first things first.
    Simplify the funding. It is mysterious and even nonsensical 
to many in the State and local community as to why they cannot 
use funding to support some of the necessary activities.
    Finally, aggressively promote intelligence-led policing. 
Consistent with an earlier proposal contained in this 
subcommittee's LEAP report, which was published in 2006, 
homeland security information-sharing would benefit from a 
coordinated, consortium-like approach rather than individual, 
disconnected efforts to foster and promote intelligence-led 
policing.
    Focusing on two areas is what I would suggest: Establishing 
and coordinating information needs from local and State 
agencies, much like a criminal intelligence priorities 
framework that the Federal Government could receive to know 
what the State and local information needs are; and, second, 
emphasizing and strengthening the analytic capacity in local, 
tribal and State agencies.
    The last thing I would point out is the need to move 
faster. Following the attacks of 9/11, we moved with a great 
deal of urgency, and today, in some areas, we are moving much 
more slowly. A renewed sense of urgency would help us all 
maintain that momentum.
    With all other issues in homeland security, this is 
critical, and there is much to do. I pledge my continued 
support and those with whom I work.
    [The statement of Mr. Porter follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Harman. Thank you.
    Mr. Porter. Thank you for your time.
    Ms. Harman. Thank you, Mr. Porter.
    Mr. McKay, you have the 7 minutes that each of the other 
witnesses took to summarize your remarks.

   STATEMENT OF JOHN MCKAY, PROFESSOR FROM PRACTICE, SEATTLE 
                    UNIVERSITY SCHOOL OF LAW

    Mr. McKay. Thank you, Madam Chair. It is an honor for me to 
be here at the committee. I keep reminding your very capable 
staff that I am a former law enforcement official, that I was 
fired as United States attorney, and I wasn't sure what I had 
to contribute, as a humble Irish----
    Ms. Harman. Let me interrupt right there. We know what you 
have to contribute, and we are very happy that you are here.
    Mr. McKay. Well, thank you. Having been schooled by 
Congressman Dicks as a young congressional aid, I must say 
there is nothing like speaking to Congressman Dicks and 
briefing him on a bill that he thought rightly he should have 
been briefed on before I sat in his office. Mr. Shays and I 
worked together, when I was president of legal services, and it 
is a privilege to be here.
    As a law professor and not owning any of the funding that 
some of the Federal agencies provide, I can be blunt and a 
little less kind, I think. I would give a grade, which is now 
my profession, of maybe at best a C-minus to Federal partners 
in law enforcement information sharing. I would reserve an A-
plus for one little agency in the Department of Defense called 
the Naval Criminal Investigative Service who have led the way 
in the national leadership on the LInX program, which I know 
Mr. Dicks is well-aware of because the first place in which it 
was launched was in his district.
    I give a C-minus--and I think I am being generous--because 
one might ask the question: Who is in charge in the Federal 
Government in building regional law enforcement information-
sharing systems? The answer is: No one. The question of who is 
designing the standards which are implementable, which can 
actually be implemented, is that they are not in existence 
other than in the LInX program.
    No one gets the geography in Federal agencies. They do not 
seem to understand that the real leadership is seated to my 
right and to the people who they represent here in the fusion 
centers as sheriffs, police chiefs, and heads of State police. 
The Federal approach has been a DC-centric planning experience 
and not one that recognizes the leadership of individuals such 
as our former sheriff and the Ranking Member here, Sheriff 
Reichert, who understated his role dramatically in the build-
out of the first LInX program in the Northwest.
    What is it? Information sharing is now a buzzword, 
unfortunately. What I believe it is, is the synthesizing and 
exploiting of all shareable data. That means that, through a 
single click, like we do with Google, we in law enforcement 
should have the ability to have a single composite record. It 
is the local leaders who are actually leading the way here.
    My concern about fusion centers is that they do not have 
fused data. The data systems are disparate. As Sheriff Baca has 
pointed out, 18,000, 19,000 State and local agencies have no 
legal obligation to share their data with the Federal 
Government, none.
    Now, that means that if we are going to build real 
information-sharing systems that will help us solve all crimes 
first but lead the way in identifying potential terrorists, 
then we have to do so in a shared, cooperative, partnership 
basis. I believe the Federal Government must fund these 
systems, and they must be co-owned in equal partnership with 
State and local partners. That is the basis of the LInX 
program.
    I am not here to sell the committee LInX. I am here to say 
there are basic standards that should be agreed upon. I listed 
those in my statement.
    This is also not about buying technology. This is about 
real partnerships. This is about solving crimes. I challenge 
any Federal official to indicate what efforts they have made to 
work interdepartmentally. This shouldn't be owned by the 
Homeland Security Department, it shouldn't be owned by the 
Department of Justice, and it surely cannot be owned by the 
Department of Defense. The public has a right to be protected 
in civil liberties, civil rights.
    As I tell my students in a final lecture that I give, 
called ``Doomsday Lecture,'' we are not going to like each 
other very much when we are attacked next and we haven't 
strengthened our systems within the law to keep people safe.
    Thank you for the opportunity to be here today.
    [The statement of Mr. McKay follows:]
                    Prepared Statement of John McKay
                           September 24, 2008
    Good morning Madam Chair and members of the Homeland Security 
Subcommittee on Intelligence, Information Sharing and Terrorism Risk 
Assessment. I am John McKay, the former United States Attorney for the 
Western District of Washington. I am currently Professor from Practice, 
at Seattle University School of Law, where I teach Constitutional Law 
of Terrorism and National Security Law. I am pleased to appear before 
you to present information regarding ``A Report Card on Homeland 
Security Information Sharing.''
    I had the privilege of testifying before the subcommittee during 
its hearings in the district of the Ranking Minority Member, Mr. 
Reichert, in March 2007 on the topic of law enforcement information 
sharing and warned that meaningful law enforcement information sharing 
was blocked by turf and failed coordination among Federal agencies. 
While local sheriffs and police chiefs have risen to the occasion in 
the implementation of the standards-based exploitation of law 
enforcement information sharing, DHS, DOD and DOJ have missed a golden 
opportunity to make this possible on a national scale by funding and 
leading implementation of the Law Enforcement Information Exchange 
(LInX). As I reported to the subcommittee:

``I am convinced that the standards of senior executive law enforcement 
leadership, a cost efficient technology, and a fervent commitment to 
share all legally sharable law enforcement records is the recipe for 
successful information sharing among our 18,000 law enforcement 
agencies in our country. This is an effort which must be led from the 
most senior ranks of government, and one which must meet the 
operational needs of our sworn law enforcement officers and analysts 
who are on the front line every day attempting to find the proverbial 
needle in the haystack that might lead them to a terrorist support 
network, or to quickly capture a serial pedophile, random rapist or 
violent criminal. Neither crime, criminals nor terrorists know any 
borders. In fact, they now know how to exploit our geographical borders 
and bureaucratic jurisdictions to their own advantage. We need a new 
weapon in our fight to preserve our freedoms, and I believe we may have 
found such a weapon in the deployment of the LInX program.''

why law enforcement information sharing is critical to our security and 
                     safety--and how we are failing
    In the aftermath of September 11, a consensus emerged that American 
law enforcement had to dramatically improve the sharing of law 
enforcement information among Federal, State, and local agencies.
    This consensus has led to the elevation of the concept of 
``information sharing'' as an unquestioned priority in virtually every 
Federal agency. Today, information sharing committees abound in Federal 
departments and professional associations, and information sharing is 
used to justify the majority of the technical systems being budgeted 
and deployed in Federal agencies.
    ``Offices of Information Sharing'' have made their way into most 
law enforcement agencies, as have new job descriptions for information 
sharing officers and specialists. Information sharing committees within 
agencies are fast at work developing strategies, reviewing and revising 
policy, designing technical approaches, and studying vexing problems 
associated with security, privacy laws, and overcoming other 
traditional obstacles for effective information sharing. In short, the 
post 9/11 consensus has given the term ``information sharing'' a 
prominent place in the management of Federal law enforcement agencies.
    Unfortunately, this near frenetic activity has not produced the 
results we all expected. Let me be more specific. The assumption 
following the events of September 11 was that the ``stove-piped'' 
character of American law enforcement would be transformed and that 
difficulties of sharing information among the approximately 20,000 
independent police agencies in the United States would soon be 
overcome. It was also assumed that refusal of Federal agencies like the 
FBI, DEA, ATF, and ICE to share their information with one another and 
with their State and local partners on matters of shared interest would 
give way.
    A tradition of ``need to know'' would actually be replaced by a 
mutually agreed upon doctrine that emphasized the ``need to share''.
    The assumption that the post-9/11 era would be characterized by a 
new term--transparency--has unfortunately proven to be unfounded. And 
efforts to make you and other Members of Congress think otherwise is 
untrue and, in my view, unethical.
    You have heard, and you will continue to hear Federal officials and 
their supporters in associations boast of fusion centers, 
interdepartmental information sharing systems, national networks, and 
grant funds made available for regional information sharing systems.
    I urge you to probe carefully the assertions that such initiatives 
are providing the expected transparency or enhancing law enforcement 
effectiveness. In my view, the initiatives have cost a lot of money, 
put lots of people to work, put new technologies into the public 
service, and given agency officials political cover with the illusion 
of progress, but have not produced meaningful information sharing and 
have had virtually no operational impact.
    Despite their lofty claims, Federal officials are misleading you if 
they have caused you to believe that fusion centers are actually 
``fusing'' any data, that interdepartmental systems in DOJ, DHS, or DOD 
are integrating anything but inconsequential records, or that Nation-
wide networks like N-DEX and HSDN are systematically transporting data 
that is being used by State and local police departments.
    If you accept these assertions at face value, you will be 
misinformed.
    Those of us willing to honestly address this issue will conclude 
that ``information sharing'' has no clearly understood meaning, is 
poorly managed, and has been made overly complicated. From a national 
perspective, there is no concept of success, no agreed-upon 
jurisdiction, no designated authority, no effective leadership. And 
despite the large sums of money being spent over the past decade and 
many, many promises, there remains no consensus on the way to proceed.
    Let me quote from a June 2008 Status Report from the Government 
Accountability Office on the progress of Federal Information Sharing 
Environment (ISE), which was mandated by the Intelligence Reform and 
Terrorism Prevention Act of 2004. The report was critical of the lack 
of progress in implementing the ISE, declaring that, `` . . . the 
desired results to be achieved by the ISE . . . have not yet been 
determined''.
    This conclusion, which is entirely accurate, should not be 
acceptable to this subcommittee 7 years after 9/11 and 4 years after a 
law mandating information sharing.
 federal efforts fail to focus on strategic planning and coordination 
                  with state and local law enforcement
    Part of our challenge is the ISE focus on Federal records, which 
does little to add to the information sharing capabilities of State and 
local police. From a national perspective, law enforcement information 
sharing should have two distinct, but related, objectives.
    First, for State and local law enforcement, information sharing 
should eliminate problems associated with the limited jurisdictions and 
separate, incompatible record systems of most city and county police 
departments. The various departments all have different record systems 
and rarely permit one department unlimited access to another's records. 
But as every deputy sheriff and police officer knows, law enforcement 
files often contain otherwise innocuous records--parking tickets, 
associates, addresses, phone numbers--that don't show up on incident 
reports but often provide the critical information that solves the 
case. While some jurisdictions are taking steps to integrate their 
records, progress here is woefully slow and there is no prospect of a 
comprehensive solution for years.
    Second, a national information sharing system should ensure that 
Federal agencies have access to information maintained in State and 
local agencies that may be pertinent to terrorist threats and complex 
drug, organized crime, and fraud investigations. As I have said many 
times, evidence of a potential terrorist threat or organized criminal 
enterprise is far more likely to be found in the incidental contact 
with the 10,000 police officers in the State of Washington, than by the 
less than 150 FBI agents assigned to the Seattle Field Division.
    This is no more clearly evidenced than by the fact that the 
Arlington, VA Police Department issued a speeding ticket to Hani 
Hanjoor, the pilot of Flight No. 77 which attacked the Pentagon, 6 
weeks prior to the 9/11 attack. The information collected by the 
Arlington Police, if automatically shared with the FBI, most probably 
would have alerted the FBI that a suspected al Qaeda operative was 
present only miles from our Capital and seat of Government. Imaging the 
possibilities had we embarked upon a real commitment of law enforcement 
information sharing among all local, county, State and Federal 
agencies.
    From a national perspective, making State and local law enforcement 
records available to Federal agencies is a critical component of 21st 
Century public safety. How could the stakes be any higher? What Federal 
official would testify before this or some other committee to explain--
after a devastating terrorist event--that information which might have 
prevented the attack was found, after the fact, in the files of a 
municipal police department? I'm sure you will agree that the scene 
would be ugly, the consequences profound, and the blame would be earned 
by all. Progress since September 11 has been minimal. And we are, I 
strongly believe, unnecessarily vulnerable.
    Moreover, the gains to be made by synthesizing and systematically 
exploiting both Federal and State/local data are clear to every Federal 
agent and police officer I have spoken with on the subject. Yet they 
also share a profound pessimism that this will come about any time 
soon--a sentiment I find very sobering. The benefit that would accrue 
to U.S. national security in having police records integrated in a 
strictly controlled fashion with sensitive Federal data and would be 
nothing short of remarkable.
                      learning the lessons of linx
    The one notable exception to this general assessment has been the 
strong contribution made by the Naval Criminal Investigative Service 
funding and deploying LInX to areas of U.S. Navy interest.
    As the committee is aware, I was an active leader in the 
development and early implementation of the LInX system. Prior to my 
2007 dismissal as United States Attorney in Seattle, I worked with law 
enforcement agencies in the State of Washington to develop a 
comprehensive strategic plan to enhance our capacity to address 
terrorist threats, to more effectively attack a growing drug 
trafficking problem in the Pacific Northwest, and to address an 
emerging problem associated with criminal enterprises in my district. A 
key part of the strategy called for new and innovative approaches to 
sharing information among Federal, State, and local law enforcement 
agencies in the Puget Sound area.
    NCIS had also just completed a strategy that called for aggressive 
action to develop strategic partners and to share information in areas 
of NCIS interest and jurisdiction. Since the Seattle area, specifically 
Bremerton, Washington within the district of subcommittee member Mr. 
Dicks, is home to the Pacific Nuclear Submarine Fleet it seemed natural 
that NCIS would become a key participant in an area information sharing 
effort. Keep in mind, at this time we had no settled technology, nor 
any specific approach. However, together with innovative local law 
enforcement leaders such as then King County Sheriff Dave Reichert, we 
shared a commitment to improve our collective capabilities in the face 
of very real threats.
    I was fortunate to work with a team that addressed all of the 
legal, policy, technical, and cultural obstacles that continue to limit 
information sharing efforts, and produced--in an unbelievable short 
time and for an incredibly low cost--an information sharing system that 
now serves as a model for regional intelligence systems.
    The Northwest LInX project is an unqualified success, and has been 
critically examined and reviewed by all Federal departments. It is now 
used by virtually all law enforcement agencies in the State of 
Washington and is producing examples of operational impact that would 
not otherwise have occurred. Moreover, 5 years later, the NCIS has 
deployed LInX to 13 States (26 percent of the Nation), involving more 
than 500 agencies, and serving more than 10,000 users. It includes 
interfaces to DOJ and DHS systems and is piloting interconnectivity to 
N-DEX.
            five standards of successful information sharing
    The key to the success of Northwest LInX was in clarifying the 
objectives of the project, directly addressing legal, policy, and 
cultural concerns, and developing and implementing clear program 
standards that were designed to ensure effectiveness. Technology is not 
the answer to the information sharing problem, but just one part of the 
solution. There are five standards which are essential for any program 
to work. Let me summarize them for you.
    First, developing an information sharing project with the law 
enforcement community at the regional level requires strong leadership 
and effective governance. While the decentralized system of local law 
enforcement has generally served our Nation well, it is a serious 
obstacle for efforts that require close coordination, detailed 
oversight, and transparency. Law enforcement in any community involves 
Federal, State, and local agencies each with different jurisdictions 
and different missions. The only entity with the jurisdiction, the 
authority, and the power to bring this disparate group together is the 
United States Attorney who, in my view, must function as the Chief Law 
Enforcement Officer for his or her District.
    Leadership is not only personal, it must have structure, and we 
immediately decided that a formal body must be incorporated to provide 
authoritative decisions, to act on behalf of the member agencies, and 
to be accountable for the operation of the system. Part of the problem 
had been the lack of any organized entity to discharge the management 
responsibilities of this complex project. Organizing dozens of police 
agencies, designing a technical architecture, integrating their data, 
and executing the legal and policy documents required will simply not 
happen by itself.
    The establishment of the LInX Governance Board is viewed by many, 
including DHS, as the critical success factor in the success of the 
LInX project. It has been the foundation of all nine LInX sites. And it 
has been the vehicle that ensures interdepartmental collaboration among 
Federal officials, local chiefs and sheriffs, and the U.S. Attorney.
    Second, in order for an information sharing system to ``connect the 
dots'', there must be dots to connect. There is currently no standard 
and minimal guidance about what records should be included in an 
information sharing system. Decisions are left to the discretion of the 
participating agencies. In Seattle, we viewed this as untenable--why 
have a system designed to prevent terrorism if agencies had the 
discretion to limit the data they chose to share? So we included a 
requirement in the LInX Charter--signed by the heads of all 
participating agencies--that requires the inclusion of ``all legally 
sharable data''. This ensures that the system will produce a composite 
record of any search that reflects all knowledge maintained by 
community.
    Third, while this is not about technology, the technology is 
clearly an enabler. From an information sharing perspective, the system 
must be able to retrieve the needed records with a single search and 
produce an accurate composite picture in seconds that reflects the 
information maintained by all participants, must provide the ability to 
exploit the data to discover otherwise unknown associations, and must 
instantly produce documents of interest to all participating agencies. 
The technology is complex, and of course there are many considerations 
here. But from a project perspective--these three requirements should 
drive the performance of the system.
    Fourth, to overcome the legitimate concerns of police officers to 
protect the integrity of their investigations, the system must be 
secure. In initiating the LInX project, we believed that all 
participants and potential participants must have no concerns that data 
might be compromised. So the LInX system was designed to provide all 
necessary audit trails, system security that can meet TOP SECRET level 
security requirements, and physical security by housing and maintaining 
the system in the Seattle office of the FBI. It is my understanding 
that most of the LInX sites have followed this model and have housed 
the system in a secure Federal facility. The effects of this have been 
clear--during the 5-years of LInX operations, not one report of 
compromised information has been reported.
    Fifth, rigid oversight must be provided in the form of regular 
audits and evaluations to ensure that the system is reliable, 
performing as expected, and producing the anticipated impact. Put 
simply, we must have a system like LInX that helps us arrest the bad 
guys and catch terrorists.
    These five project standards provide the foundation for the success 
of LInX and should serve as the basis for a national model under any 
name or administered by any agency or department. These standards were 
developed in an effort to directly address and overcome all of the 
traditional issues that were being cited to limit information sharing; 
the ability of NCIS to incorporate these five standards into their 
model Charter and to obtain the signatures of 500 Chiefs of Police who 
support the program clearly validates the correctness of this approach. 
I strongly suggest that this subcommittee consider adopting these 
standards as the basis for a national plan and imposing these or 
similar standards as a condition for Federal funding of information 
sharing systems in the future.
          federal agencies and departments are failing to lead
    Federal Agencies, with the exception of NCIS, have taken a totally 
different and ultimately ineffective approach to information sharing. 
Where the focus of the LInX program is on data maintained in specific 
communities, Federal efforts have focused on process and technical 
standards, not operational outcomes that would positively impact our 
communities. This is understandable, though not forgivable, when one 
considers that DEA addresses drug trafficking, ICE illegal smuggling, 
ATF guns, FBI terrorism, organized crime, and fraud--and that their 
concern is specifically limited to areas within their mission 
responsibilities. The real shortcomings of the various Federal efforts 
post 9/11 have been their predominant focus on process over operational 
concerns.
    This is exactly the difference between the LInX program and every 
other LE information sharing efforts. The LInX program is a partnership 
between Federal, State, county and local agencies, with clearly 
identified leaders, accountable for success or failure. Local leaders 
such as Los Angeles County Sheriff Lee Baca with whom I am proud to 
appear today are providing the real leadership in these efforts and 
underscore Federal failures to lead and fund effective information 
sharing systems. Without Federal leadership, clear accountability and a 
passion to achieve operational results, all such future endeavors by 
DHS or DOJ acting alone will achieve mediocre results, at best.
    I have been able to identify no Federal official or staff member 
who feels that it is his or her job to integrate the law enforcement 
records of local law enforcement, in spite of the universal 
understanding of the critical need to integrate and analyze these 
records for the security and safety of our homeland. In fact, senior 
executives in both DOJ and DHS have shunned this responsibility and 
have offered no coherent approach to solve these problems. No one has 
developed a plan or a strategy, or an approach, or even suggested 
standards like those in the LInX program. Today, the Federal Government 
is silent on the issue, in spite of an opportunity to provide the 
leadership that today, would have integrated most law enforcement 
records for analysis by security and intelligence agencies within the 
purview of this subcommittee.
toward a national information sharing system and a meaningful role for 
                                  dhs
    In 2004, I joined with four United States Attorneys to develop a 
white paper suggesting that the model we developed in Seattle be 
expanded to include other jurisdictions, and that the U.S. Attorneys 
from Hampton Roads, Jacksonville, Corpus Christi, and Honolulu join in 
a pilot program to assess the concept on a wider scale. Then Deputy 
Attorney General Jim Comey was intrigued by the issue, and after 
discussions with Gordon England, Dave Brant, and the heads of the DOJ 
law enforcement agencies, agreed to support the project. Mr. Comey 
issued definitive guidance on a pilot, specifically calling for the 
involvement of the FBI and other DOJ components.
    FBI and DOJ staff came back with a counterproposal suggesting that 
DOJ should concentrate on integrating internal DOJ records first, 
before embarking on participating on project of sharing information 
with State and locals. The result--nearly 4 years later--is that only 
very limited and highly screened information is being provided to State 
and local agencies through these systems. These systems are so 
cumbersome that, where available, DEA and FBI users are strong 
supporters and have become prolific users of the LInX system--to the 
exclusion of the DOJ information sharing systems.
    In 2006, I was asked by the incoming DOJ Deputy Attorney General 
Paul McNulty to head a working group of U.S. Attorneys and to devise a 
plan for wider application of information sharing on a regional basis. 
My working group consisted of more than fifteen U.S. Attorneys 
interested in participating in an information sharing system for their 
districts. The resulting plan endorsed the LInX system and recommended 
significant roles for all three Departments and leading to the 
convening of a seminal meeting during the summer of 2006, of the Deputy 
Attorney General, the Deputy Secretary of Defense, and the Deputy 
Secretary of Homeland Security. While the plan met with the concurrence 
and ``handshakes'' of all participants, it was ultimately opposed by 
the DOJ and DHS staff and the effort lost the support of their 
Departments.
    Following collapse of the interdepartmental effort, the Navy 
continued to pursue development in areas of its strategic interest. 
Over the next 3 years, new sites were initiated in New Mexico, the 
National Capital Region, North Carolina, and--just a week ago--in 
Southern California as Sheriff Baca will testify. And the demand for 
LInX throughout the country continues to grow.
    In spite of the failure of DOJ, DHS and DOD to create an 
interdepartmental effort, the local successes of LInX has proved four 
things: (1) A transformational project can be implemented quickly and 
efficiently; (2) it can have tremendous impact; (3) it will not break 
the budget; and, (4) no single department can do it alone. I cite the 
LInX experience not merely because I was intimately associated with it, 
but because it has been widely acclaimed and has produced a near 
consensus among law enforcement officials that it provides a successful 
model for effective information sharing. Among other things, the LInX 
experience has proven that meaningful information sharing:
  <bullet> can have a substantial impact on crime and national 
        security;
  <bullet> is technologically feasible, and not expensive;
  <bullet> should be funded federally;
  <bullet> will require positive collaboration and cooperative 
        management by the three Departments that share jurisdiction in 
        this area--DHS, DOJ, and DOD.
    As I said at the outset, in this environment, no one Federal 
official admits responsibility for the development of a meaningful and 
effective law enforcement information sharing program or whether it 
happens in upstate New York, or Houston, or San Francisco, or Chicago. 
I have found no one in the Federal Government who cares sufficiently 
about this to assume responsibility for designing, funding, 
implementing and managing a national system--despite the clear value to 
the American people.
    This subcommittee and the Congress play a critical role in 
stimulating the leadership which has been lacking at DHS and the other 
departments who share the responsibility and the blame.
    In my view, the Congress should clarify the jurisdiction issues by 
declaring that law enforcement information sharing is the joint 
responsibility of the three Departments, and that specific 
responsibility resides as follows:
    (1) DOD/NCIS should assume responsibility to continue to extend its 
        LInX program along the coastal United States. The LInX approach 
        to management, its technical approach, and governance process 
        should be taken as the model for the rest of the country.
    (2) DOJ should reestablish the organizing and coordinating role of 
        U.S. Attorneys that have been so critical to the success of the 
        LInX program. DOJ should ensure that the FBI, DEA, ATF, USMS 
        and BOP are full participants, and should explore new ways to 
        involve sensitive Federal data in these efforts. DOJ should 
        identify 10 regional sites around the country in which it will 
        assume the leadership role played by NCIS in the LInX projects. 
        DOJ should assume the role of organizing information sharing 
        governance processes in those regional sites in full 
        coordination with DHS grant funding while leveraging the DOD 
        expertise and lessons learned.
    (3) DHS should provide startup funding, technical support, and the 
        restriction of grant funding only to those information sharing 
        projects that will meet the LInX project standards. DHS 
        agencies such as ICE, CBP, Secret Service, U.S. Coast Guard and 
        others should fully participate in all sites. ICE has shown 
        through its law enforcement leaders such as Seattle Division 
        SAC Leigh Winchell that it plays a critical LE role in 
        information sharing. ICE should assume the same leadership role 
        for DHS as that played by NCIS in deploying the LInX projects. 
        DHS will assume the role of coordinating the grants for, and 
        the deploying of information sharing programs in those areas 
        not addressed by NCIS.
    (4) The Congress should also authorize the creation of an 
        Intergovernmental Governance Board--to support Federal 
        integration, networking, development and execution of a 
        national plan. Different from the ISE, this would consist of 
        the heads of Federal law enforcement agencies, and would have 
        as its primary objective, the full integration of law 
        enforcement records of State and local law enforcement 
        throughout the country. The Board would be led by the Director 
        of a major Federal law enforcement agency who would serve on a 
        rotating basis for a 2-year assignment. The Governance Board 
        should clarify definitions, roles and responsibilities, and 
        develop a national implementation plan within 90 days of its 
        establishment. The plan would seek to place LInX like 
        information sharing projects throughout the country within a 3-
        year period, with at least five new regional projects funded 
        for 2009. I do not believe that this type of aggressive 
        leadership is taking place anywhere.
    (5) Congress should assure the standards of a national law 
        enforcement information-sharing program, while safeguarding the 
        civil liberties and civil rights of all Americans. This would 
        include incorporating the five LInX program standards as 
        requirements for Federal funding. Most importantly, the 
        committee should adopt the standard of ``all legally sharable 
        information'' as a requirement for any Federal assistance. 
        Information sharing in this age should be viewed as 
        ``synthesizing and exploiting'' all sharable data, thereby 
        providing a composite record that does not otherwise exist. 
        This is perhaps the single most important attribute of 
        information sharing systems and one that is not now in 
        existence outside of the LInX program. This will greatly narrow 
        the competing approaches to information sharing and begin to 
        provide consistent guidance.
    (6) Finally, success breeds success. Take information sharing out 
        of the Beltway meeting rooms and into the community. In 2009, 
        begin funding programs in interior sites. Develop them as 
        pilots to be refined over time. But realize that within 120 
        days of a decision to deploy a system, law enforcement in the 
        community has been dramatically enhanced, crimes are solved 
        that wouldn't otherwise be solved. Child predators are 
        apprehended that would still be on the loose. Lives will be 
        saved. Communities ranging from Syracuse to Houston, to Santa 
        Clara County are ready now.
    This subcommittee will make a major contribution by addressing the 
lack of leadership on this issue and mandate the development of a 
national plan, minimal information sharing requirements, and funding 
some regional startup projects in 2009.
    I am enormously proud of the many State and local leaders who have 
joined with a few brave Federal compatriots to address an issue 
critical to the security and safety of our country. Now is the time for 
action. We are vulnerable to the attack of our enemies and the 
exploitive tactics of criminals. Congress will play a critical role in 
assuring these challenges are met.
    Thank you, Madam Chair and Members of the subcommittee for the 
opportunity to share my views with you today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Harman. Thank you very much for a very brief and 
succinct statement that was hard-hitting, and that is exactly 
what we are inviting today.
    I now yield myself 5 minutes for questions.
    To all of you, we put your panel on before the Federal 
panel for a reason. We want your messages to be responded to by 
Charlie Allen and Mike Leiter. So I want to be sure that they 
are crystal-clear.
    I want to invite each one of you to make a comment or pose 
a question to Charlie Allen and Mike Leiter. That is what my 
question is. It is an opportunity for you to think about what 
you have already said in your testimony and anything else you 
want to say. What is your one top message to them?
    It should be constructively critical. I think that is fair, 
and I think that is what they would welcome.
    My second question--I might as well ask these at the same 
time; both Mr. Porter and Mr. McKay mentioned privacy and civil 
liberties--is that every time we talk about making fusion 
centers more robust, either in terms of fusing data that is 
there, adding people, sustaining funding, sustaining focus, 
some of these civil liberties group, some of our favorites 
chime up and say, ``Oh, no, this is harmful.'' I have said 
every single time, I am asked, that what fusion centers do--and 
you just said it, Mr. McKay--has to be consistent with the 
strict regard for the law.
    But I would like each of you--because, Sheriff Baca, I 
don't think you addressed this at all in your testimony--to, 
No. 1, to pose your toughest question to Allen and Leiter, but, 
No. 2, clarify for all of us precisely what, in your case, you 
do, Sheriff Baca, or you, Mr. Porter, and, in your case, Mr. 
McKay, what you now teach, about the need for fusion centers to 
comply strictly with the law and respect privacy and civil 
liberties.
    Let us start with Sheriff Baca.
    Sheriff Baca. Okay. The first question to Mr. Allen is 
certainly, No. 1, saying he has a great, big job that all of us 
have to depend on for leadership.
    The question would be, regarding intelligence theory--
local, national, international--what authority does he have to 
incorporate the fusion centers into a policy discussion as to 
how we can do this job better with what we each have to do?
    The second question would be, relative to making fusion 
centers more robust, what restrictions does the Department of 
Homeland Security have in allocating its funds in a 
concentrated way to build out the fusion center network 
throughout the United States? Which would mean that major 
fusion centers--New York, Chicago, Los Angeles, DC and cities 
like that--could have the core responsibility for networking 
with smaller communities so they wouldn't have to, ``Put up 
another fusion center''?
    So, thus, the question would be: How can the State and 
local fusion center concepts be wedded into a national strategy 
under Charlie Allen's guidance?
    Ms. Harman. Thank you.
    Mr. Porter.
    Mr. Porter. My colleagues would like to know: When are we 
going to get serious about domestic terrorism issues and 
reaching information all the way out to the officer on the 
street concerning those things that happen here in the United 
States?
    Madam Chair, I didn't understand the second question with 
respect to the privacy issue.
    Ms. Harman. I just wanted more specific information about 
how your agencies comply with laws respecting privacy and civil 
liberties.
    Mr. Porter. Extensive training for all of our people, and 
we encourage transparency. We had Fox News network in our 
offices, and we are not afraid of that. We certainly want to 
protect the information that is within there to protect privacy 
and civil liberties. We hang a 7-foot-tall Bill of Rights on 
the front door to make sure people see it every day when they 
come in.
    Ms. Harman. Thank you, Mr. Porter.
    Mr. McKay.
    Mr. McKay. Madam Chair, I am stunned that the Department of 
Homeland Security, the White House, the Department of Justice 
have not articulated anywhere that I have seen the urgent need 
to migrate local law enforcement information in a coherent form 
to Federal agencies.
    At the back of my statement is what we term the LInX Logic 
Model. You will see something we are right up front with local 
leaders in the Seattle area, that in the end the Federal 
Government has a very important mission in acquiring this data 
for purposes of keeping us safe, in particular from terrorist 
attacks.
    What I mean by this is there are a number of agencies that 
can integrate this data into classified settings. So while this 
data coming from law enforcement is unclassified, there are 
classified environments where the application of even a traffic 
ticket can make the difference, as it might have in the 9/11 
attacks.
    So I am stunned that there has not been an articulation for 
Federal leadership, in working with State and local partners, 
to integrate this data and make it movable. There are 18,000 to 
19,000 different record systems in the United States. But we 
know through LInX and systems like LInX that they can be 
combined if they are owned by the locals.
    Madam Chair, that is the answer to your second question, I 
believe. That is, local ownership of law enforcement records is 
overseen by local city councils, local county councils, local 
judges who apply State privacy laws. Where there is Federal 
leadership, as we had in LInX, where United States attorneys 
assured that no information violated Federal privacy laws, all 
data was owned by the locals, nothing migrated that didn't come 
attached to it with all State laws on privacy, all Federal laws 
on privacy and all ownership staying with the locals.
    Ms. Harman. Thank you, Mr. McKay. My time has expired. Next 
time Mr. Dicks gives you any trouble, just let me know.
    Mr. McKay. Thank you.
    Ms. Harman. Mr. Reichert is now recognized for 5 minutes.
    Mr. Reichert. Thank you, Madam Chair.
    Mr. McKay, you mentioned that, in your opinion, no one was 
in charge, no one had responsibility for the overall 
intelligence community in sharing information. I was just 
wondering, who would you think, in your opinion, should be the 
lead in the Federal Government?
    Mr. McKay. Well, I would say that DNI clearly has that 
role. What I mean is that no one has taken responsibility for 
building with the locals the information-sharing system that we 
have been talking about. There is no way to migrate, as you 
know, the local law enforcement information into the Federal 
system unless the Federal system helps build regional systems.
    What I am saying is no one at DNI, to my knowledge, has 
taken responsibility for this, no one at the Department of 
Homeland Security has taken responsibility for it, and no one 
at the Department of Justice has taken responsibility for it. 
Only DOD has done it, in the LInX System.
    So my proposal simply is that there be an interdepartmental 
program management office. We made this proposal in the summer 
of 2006. It was agreed to by the deputies of all three 
departments, and then they all dropped the ball. So we don't 
have an interdepartmental PMO. That is what we should have, or 
the FBI is going to start fighting ICE tomorrow over who gets 
these records. I don't want to pick on my friends at the FBI 
because you could insert any other agency.
    We have a model, and the model is OCEDEF, ``OCEDEF'' 
meaning the counter-drug agency. I know you are very familiar 
with it. But there is precedent for interdepartmental PMOs, and 
we could name others. That is what I believe is needed here.
    Mr. Reichert. Thank you. I remember the struggle we had 
back in 2006 with those issues.
    But I wanted to ask also Sheriff Baca and Mr. Porter, is it 
your feeling, too, that there is no one responsible? Is anyone 
taking responsibility? Is there a person that you see as taking 
the lead role here for the Federal Government? Do you have the 
same opinion as Mr. McKay?
    Sheriff Baca. To an extent, yes. The thing about the job 
that was given to Assistant Secretary Allen, I think they are 
asking him to do too much, in a sense that, how far does his 
authority reach? That is why my question is posed the way it 
is. That if he can't reach out and coordinate a national system 
of intelligence gathering and have a classification 
modification that lets you scrub specific cases for local 
training purposes, then who does? If we don't know the answer 
to that, then this is probably the subject of a congressional 
piece of legislation.
    Mr. Reichert. Mr. Porter.
    Mr. Porter. I believe in the field there is a lack of 
clarity about the lanes in the road in the Federal Government 
and who has the authorities and roles for some of these various 
functions. So, as a result, yes, there is a lack of clarity as 
to who has the lead responsibility for this.
    With the revisions to Executive Order 12333, that 
information I don't think has caught up to most of the people 
in the field. But I understand there has been some adjustment 
to authorities there. Mr. Allen, in my meetings with him, he 
has been very open to listening and wanting to hear what State 
and local law enforcement officials want from his office in my 
recent meetings with him.
    Mr. Reichert. Thank you.
    Very quickly, in regard to your comment on the legislation 
that has passed the House, we mentioned earlier, the Chair 
mentioned, that this piece of legislation has actually passed 
through the Senate. Hopefully--we don't know how long we are 
going to be here, but hopefully before we leave the President 
will sign that legislation regarding the funding for intel 
analysts.
    So we are pushing hard on that. The Chair is helping us out 
with that, and we are hoping for some success there in the next 
few days.
    Mr. Porter. Thank you. We have appreciated your leadership 
of this subcommittee on getting that through. Thank you.
    Mr. Reichert. We would allow the sheriff to respond. Did 
you have a comment?
    Sheriff Baca. Yes. I would say that, clearly, in one of my 
points, FEMA is not the right place for intelligence funding, 
and yet all of what we do in the law enforcement sector is 
administered through the FEMA prism.
    So I just want to make a distinction that, the first 5 
years, first responders got quite a bit of equipment and 
training and sets of information they needed. But when you are 
going to prevent terrorism, that is a whole different strategy. 
Therefore, it involves purely the law enforcement and the 
Federal law enforcement systems with the local systems to be 
fully integrated. To say is it worth more to prevent the 
terrorist attack, at the same time we have done a lot to help 
first responders.
    Mr. Reichert. Thank you for making that clear again, 
because that has been a consistent, common complaint, even back 
when I was the sheriff. So it is something I think that we need 
to address here in this committee, hopefully next year.
    Thank you for your comments, and I yield.
    Ms. Harman. I thank you, Mr. Reichert.
    Let me point out to our Members that, following this panel, 
we will have our Federal panel, with the head of the NCTC and 
the head of Intelligence and Analysis at DHS. Mr. Allen, the 
head of I&A, has to be at the White House at noon, something I 
just learned. So if anyone here wants to pass on questions for 
this panel, you will be recognized first, in the order you 
arrived, to ask questions of the next panel. That way, we may 
be able to get more testimony there.
    The Chair now recognizes Mr. Langevin for 5 minutes.
    Mr. Langevin. I thank the Chair, especially for holding 
this hearing.
    I want to thank our panel here this morning. I had a couple 
of question areas I wanted to focus on.
    Some say that a central mission of the Office of 
Intelligence and Analysis at DHS should be pulling intelligence 
from the State and local fusion centers and then combining it 
with Federal intelligence to create situational awareness of 
threats at a national level.
    Do you agree? To your knowledge, to what extent is this 
happening already, and where? What direction would you like to 
see this kind of work take?
    Let me start with that, and then I have one other question.
    Sheriff Baca. Well, currently, in talking with my 
colleagues in New York and here in Los Angeles--well, in Los 
Angeles--we have a direct relationship with the FBI. The FBI is 
considered to be the funnel whereby we push up everything we do 
in JRIC, especially if it leads to active cases. It has done so 
in Los Angeles, and I am confident that New York has had the 
same experience.
    The issue of passing up information has been one that I 
think we have closed with the major JRICs. That is the purpose 
of the Federal JRIC system that has been funded federally but 
it has been operated locally, that we would share information 
without any restrictions.
    The key of the issue, however, is not what do we generate 
locally. It is, how does the Federal-generated intelligence 
come down? I think that is where we have a need for more 
questioning, as is currently being done.
    Mr. Porter. I would like to see the Department of Homeland 
Security focus on identifying information needs of State and 
local agencies, so that there is clarity for them as to what 
types of information are important for a given jurisdiction, be 
it information about several other countries from around the 
globe that they might be able to help provide context to when 
developments occur on the other side of the world and provide 
that back to that local community. I think that would be of 
great help.
    Mr. McKay. I think that it should go the other way, 
frankly. I think that State and local law enforcement agencies 
have information that is much more valuable to the Federal 
Government than the Federal Government has for locals.
    I think that the aggregate information contained in the 
records of 18,000 police agencies around the country, when 
utilized by an appropriate analyzing agency--and there are 
several in our Federal Government--that that is a more pressing 
issue, frankly, than what goes the other direction.
    Sheriff Baca. May I add one thing?
    Mr. Langevin. Sure.
    Sheriff Baca. My issue is not information alone. It is: How 
do you get it? You see? The theories of intelligence gathering 
from a domestic point of view have not been fleshed out. We are 
all operating on our own experiences.
    But I believe, when I mentioned earlier that public trust 
is the key to any kind of information that will pop in to the 
system. A system that is most self-serving is not going to get 
what it needs on the local level.
    Mr. Langevin. So are you saying that we have to scrap at 
the Federal level what they have created and----
    Sheriff Baca. Absolutely not. I think the Federal system is 
intact and doing quite a bit. But what I am saying is that the 
likelihood of a terrorist plot is going to come forth in a 
variety of sources. It could come forth from a Federal source, 
it could come forth from a local source.
    But the local sourcing, as how to find proper information, 
is what we are lacking. We don't have a national strategy on 
local intelligence gathering.
    Mr. Langevin. Let me ask you this. Fusion centers are 
obviously a major focus of the information-sharing effort 
nationally. The Department of Homeland Security, earlier this 
year, issued grant guidance that really limited what funds 
could be used for what purposes at fusion centers.
    Contrary to the White House's own statements about 
sustainment funding for these centers, what observations do you 
have about the funding issues and how are folks coping? Why is 
the Department not getting the message?
    Sheriff Baca. Clearly, the Department will fund the 
creation of a fusion center, but will rarely staff a fusion 
center. Los Angeles has one person from the Department of 
Homeland Security. We are asking for more analysts.
    We believe that the Department of Homeland Security should 
have local analysts in the major fusion centers throughout the 
Nation. Those analysts will help bridge whatever Federal 
sourcing is with local sourcing and help train local sourcing 
techniques into what the local cops should be able to do.
    Mr. Porter. This is a key issue for survival of some fusion 
centers, a critical issue to keep them in existence. We are 
hoping--and one of the things we have done in the last 2 weeks 
is finalize and approve the baseline capabilities for State and 
major urban-area fusion centers, so that that can hopefully, we 
understand, help provide focused funding toward those 
capabilities at fusion centers in a directed way.
    Mr. Langevin. I want to thank the panel for your answers to 
the questions this morning.
    I have always believed that the good information, good 
intelligence is always going to be our best and first line of 
defense. We obviously have a lot of work to do to get this 
right. Your testimony here has been very helpful. Thank you.
    Ms. Harman. Thank you, Mr. Langevin.
    What we have worked out is that Mr. Dicks wants to make a 
brief comment and Mr. Dent has a brief question. We will then 
move to our second panel. I hope all of you can stay around. We 
will begin questions of that panel with Mr. Dicks.
    Mr. Dicks. I just wanted to say, Madam Chairman, that I 
wanted to welcome John McKay, who has been a longtime friend, 
and I have enjoyed working with him.
    Your leadership in creating LInX and giving it security and 
making it work have been truly extraordinary. For the good of 
the order here, I am going to forego questions. But I look 
forward to continuing on our working relationship on this issue 
and many others.
    Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    Mr. Dent, for one question.
    Mr. Dent. I will be real brief to accommodate the 
schedules.
    Sheriff Baca. you mentioned in your testimony that our law 
enforcement agencies must function as a national police system. 
Would you quickly elaborate on what you mean by ``national 
police system''?
    Then I will yield back my time. Thank you.
    Sheriff Baca. In a limited context of intelligence-sharing 
and gathering--and the theory, of course, is that all terrorist 
activity can occur at any part of our country. Conspiracies of 
cells are not going to be occurring at the target area 
exclusively. They could be in rural America, they could be in 
urban America, they could be in the major cities.
    So, if we are going to do prevention strategies with 
intelligence as a key source of prevention, we need to federate 
all of the 19,000 law enforcement agencies into the JRICs that 
are currently in place operating and those that are about to be 
implemented.
    So what it would do is it would cause for seamless 
participation by smaller agencies, who we know have a vital 
role to play, as well as the major cities.
    That is basically what it is about. It is taking 
technology, giving it a greater capacity, tying all the 
agencies together in America and then let it go under a 
standard that hopefully we can all subscribe to so that we 
don't step outside of the boundaries of the civil rights issues 
and pick on particular societies for the sake of being clumsy 
in what we do.
    So I think standards, technology, and sharing what we have 
together is the key to what we call a national counterterrorism 
strategy.
    Mr. Dent. Thank you.
    I will yield my time to Mr. Shays.
    Mr. Shays. Thank you.
    Just one question. When we are consolidating information--
local, State, Federal and all the agencies--are we also--what 
is the role of public information? Because, frankly, if we had 
had integrated public information, there are a lot of us--and I 
am one--who believes that 9/11 never would have happened.
    Mr. Baca. Clearly, public cautiousness on this issue----
    Mr. Shays. I am not talking about the public. I am talking 
about information that is available that is not classified.
    Mr. Baca. I think that any information that we have that 
indicates certain key critical targets are public information 
as it stands. What is the key to your question is, what do we 
share when it comes to suspicious activity or investigations of 
those engaged in suspicious activity? That kind of information 
definitely has to be confidential. The public----
    Mr. Shays. I am sorry to interrupt. But what I am really 
trying to add is this: The 9/11 terrorists were saying things 
publicly that no one paid attention to. Had we integrated that 
in, we would have seen relationships and we would have been 
more alert to what happened on September 11. That is true in a 
lot of attacks that have taken place around the country.
    I want to know--and maybe the answer is this. On the State 
facilities, we aren't doing that, and maybe we are just doing 
it on the Federal level. If that is the answer, I just need to 
know that.
    Mr. Baca. I think we are doing it at both levels.
    I think you are absolutely right. Suspicious activity is 
something that we all can be trained to do more of. That is, be 
sensitive to it. But I think your point about how the public 
can be helpful is something that we need to further develop in 
the way of this intelligence theories.
    Mr. Shays. Okay. I am just going to make this last point. 
It is not just the public. It is what is on the Internet. It is 
the open source information that is there. It stares us in the 
face. Sometimes I look at classified information and say, that 
is less valuable then some of the open source. But because it 
is open source, we don't value it. I think that on the national 
level we are trying to do that. I am wondering if that is 
happening on the State and local level.
    Mr. Baca. Yes, it is.
    For example, there are web sites that we know extremists 
communicate on, maybe 300 or 400. We also know where they are 
being served. We also believe it is better to monitor than to 
just shut them down. So there is a consistent strategy between 
the Federal, State and local level when it comes to examining 
that kind of open source information.
    Mr. Shays. Thank you.
    Ms. Harman. Thank you.
    The time of the gentleman has expired, and I want to thank 
this panel for enormously important testimony which has been 
listened to either in the audience or in the back room by our 
two next witnesses. That is why I hope you can stay for their 
testimony.
    Our goal, as I mentioned in my opening remarks, is to help 
you get the information you need to do your jobs better. Our 
goal means our subcommittee's goal. Nobody gave us a grade, but 
I would give us one, and it is fairly high, at least for the 
effort to make that happen, both through additional legislation 
if necessary, but certainly cajoling and pointing out gaps if 
legislation isn't necessary.
    So let me excuse you but welcome you to stay here and call 
our next panel, our Federal panel.
    To Mr. Allen, we know you have to leave at 11:45. Is that 
about right? What time do you need to leave, Mr. Allen?
    Mr. Allen. I can stay until at least 11:50.
    Ms. Harman. Okay. So we will have time for all Members to 
ask their full allotment of questions to these witnesses, and 
we will start with Mr. Dicks in this case. But the others will 
stick around, so there will be a possibility, if necessary, to 
ask some of them to respond, too, which I think will make for a 
better hearing record.
    So on this second panel our first witness is Under 
Secretary for Intelligence and Analysis, Charles Allen, the 
Department of Homeland Security's chief intelligence officer. 
Under Secretary Allen leads the Department's intelligence work 
through the Office of Intelligence and Analysis, I&A. He is 
responsible for ensuring that information is gathered from 
Department component intelligence units as well as Federal, 
State, local, tribal and private sector partners. It is also 
his job to ensure that this information is fused with 
intelligence from other parts of the Intelligence Community to 
produce analytic products and services for those partners. 
Under Secretary Allen has provided decades of distinguished 
service to his country within the intelligence community and 
has led several key initiatives during his tenure at DHS.
    As you know, Charlie, we have tried to be your partner. We 
have also tried sometimes to be your mother. But, at any rate, 
it has been an intense collaboration; and we do, all of us, see 
a lot of progress. We want to be sure you know that.
    Our second witness, Michael Leiter, is the Director of the 
National Counterterrorism Center. Mr. Leiter previously served 
as the Deputy Chief of Staff for the Office of the Director of 
National Intelligence, where he assisted in the establishment 
of the ODNI and coordinated all of its internal and external 
operations.
    Mr. Leiter also has been involved in the development of 
national intelligence centers, including the NCTC and the 
National Counterproliferation Center, and their integration 
into the larger intelligence community. In addition, he served 
as an intelligence and policy advisor to the DNI and his 
principal deputy director.
    Before coming to ODNI, Mr. Leiter served as deputy general 
counsel and assistant director of the President's commission on 
the intelligence capabilities of the United States regarding 
weapons of mass destruction. He in a prior life was a law clerk 
to Associate Justice Stephen Breyer on the Supreme Court and to 
Chief Judge Michael Boudin of the U.S. Court of Appeals for the 
First Circuit.
    It has been impressive, Mr. Leiter, to see how NCTC has 
changed over recent years under your leadership and our 
prodding to be a much more active advocate for local law 
enforcement and, actually, as the ITACG has been stood up to 
include law enforcement in the designing of intelligence 
products.
    So welcome to both of you.
    We will start with Mr. Allen for 5 minutes.

   STATEMENT OF CHARLES E. ALLEN, UNDER SECRETARY, OFFICE OF 
   INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Chairman Harman, Ranking Member 
Reichert, other Members of the committee.
    My written statement I asked to be put in the record.
    Ms. Harman. Without objection.
    Mr. Allen. It is far more extensive. So I will just briefly 
summarize what my thoughts are on intelligence information 
sharing.
    As you know, previously, prior to September 11, interaction 
with State and local was limited or nonexistent. We did not 
look at that as a partnership. September 11 changed the 
paradigm, and that created the Department eventually, and it 
also created my job as chief intelligence officer to integrate 
and develop programs for the intelligence programs of the 
Department.
    I have been at this almost 3 years. My effort, of course, 
is to develop a vision for, design the architecture of, and 
implement a comprehensive homeland security intelligence 
program where one really did not exist at all.
    I have had to integrate this program within the traditional 
intelligence community. But I want to emphasize that, in 
addition to working within the Department, equally important 
has been my outreach and efforts to share information with my 
partners at the State and local government as well as with the 
private sector.
    My priorities when I came aboard were to improve 
intelligence analysis. Analysis was not the strong point of the 
Department. Integrating DHS intelligence across the Department, 
which you have assigned to me, as you noted in some of the 
legislation, the 9/11 Implementation Act makes it very clear 
that I have to implement an integrated intelligence program for 
the entire Department, to build a strong information-sharing 
relationship with State and local and to take our place as a 
full member of the intelligence community and, of course, to 
develop an open and transparent relationship with you and the 
Congress.
    The breadth and depth of our customer set is vast and 
unique. It is truly unique within the intelligence community. 
We have to support the Secretary, the Deputy Secretary, the 
headquarters, elements and the components, the operating 
components of the Department with intelligence and information. 
But equally vital and crucial is our support to State and local 
partners, ensuring that they have access to key intelligence 
and information, while ensuring the Department has access to 
information obtained at the local level.
    I just heard comments, the need to share information, to 
harvest that which is at the State and local and bring it to 
the Federal level. We are doing that.
    Third is the support for the intelligence community's 
priorities and requirements.
    Let me talk about information sharing. Building and 
deepening our relationship with State, local, tribal, and 
private sector is a cornerstone of the Department's 
intelligence and information-sharing efforts. Fusion centers 
are an essential part of our entire intelligence effort. I 
serve as the Department's executive agent for its program to 
support fusion centers Nation-wide. I am the executive agent 
for information sharing on behalf of the Secretary. I am 
responsible for deploying officers to fusion centers Nation-
wide.
    The core activities of these officers include providing 
daily intelligence support in a multitude of ways, routinely 
communicating, exchanging information with other fusion 
centers. Because we do want to develop what was referenced 
earlier, a network of fusion centers both regionally and 
nationally across this country routinely communicating and 
exchanging information broadly with all fusion centers.
    Writing for and with--our analysts sitting and writing with 
State and local partners. We have a lot of common seals, 
sometimes up to eight common seals in our products which will 
be fusion centers, maybe NCTC and the FBI, but it would also be 
primarily State seals on the product.
    Collaborating on research, delivering intelligence products 
to the customers.
    Our deployed officers also provide analytic training 
opportunities real time to analysts down at the fusion center. 
I heard the need for this. We have mobile training teams that 
go around across this country at fusion centers doing training 
of intelligence officers in the fusion centers. We have 25 
officers and 23 fusion centers. We will have 35 by the end of 
this year. My goal is to have 70 officers in the field, one to 
each State designated fusion center as well as officers in the 
larger cities.
    Building strong bonds with State and local partners is 
really the watchword of what I am trying to do. I am very 
pleased to hear Mr. Porter talk about SLIC, the Homeland 
Security State and Local Intelligence Community of Interest. It 
is a virtual community of Federal, State and local intelligence 
analysts focused on homeland security issues. This group meets 
weekly by teleconference, and we have hundreds of officers 
attend those.
    SLIC is available to 45 States. Only five States are not 
part of SLIC. We have the District of Columbia and seven 
Federal agencies involved, and we also have a secret level 
conference every 2 weeks over a homeland security data network 
which I have established and which I am putting across the 
country.
    The HSDN has something that is really unique. It not only 
has our products that we produce but it has NCTC's on-line 
products, secret level products. We are talking about hundreds 
if not thousands of assessments that come from Mike Leiter 
here.
    On the ITACG, we are a full partner in it. We are a leader 
in it and a staunch supporter of the ITACG. We could talk about 
the ITACG and what we have done over the last 9 months in great 
detail; and if you have questions, I will be happy to answer 
them. But let it be said, it is up and operating. I meet 
monthly either by teleconference or in person with the advisory 
council of the ITACG, half of whom have to come from State and 
local governments. Believe me, we have worked at this issue 
hard so that we will not only expand the current stable of 
detailees but more than double it. We will take over full--the 
FBI is sharing some of the funding now, but we will take over 
full funding in fiscal year 2010. If you have questions on the 
ITACG, I think it is extremely robust; and I am very pleased 
with what we have done.
    DHS intelligence programs are young and growing. We are 
working hard and increasing our effectiveness to integrate 
homeland security with State and local. I will be happy in a 
question period to try to respond to some of the questions 
posed by the first panel.
    Thank you, Chair.
    [The statement of Mr. Allen follows:]
                 Prepared Statement of Charles E. Allen
                           September 24, 2008
                              introduction
    Chairwoman Harman, Ranking Member Reichert, and Members of the 
subcommittee: Thank you for the opportunity to appear before you today 
to discuss the progress that the Department of Homeland Security has 
made, and will continue to make, on its intelligence and information 
sharing programs.
    As you know, the intelligence community's focus traditionally has 
been aimed at foreign threats and its customer set focused on 
international level partners. The community's interaction with State, 
local and tribal law enforcement and other first responders 
intentionally was limited or non-existent. But homeland security, in a 
post-9/11 world, requires a new paradigm for intelligence support. My 
task as Under Secretary for Intelligence and Analysis and the Chief 
Intelligence Officer for the Department has been to lead the effort to 
develop the vision for, design the architecture of, and implement a 
comprehensive homeland security intelligence program that is fully 
integrated into the traditional intelligence community but which 
equally reaches out to new, essential partners at all levels of 
Government and within the private sector.
    This was no small task and required new authorities, new 
structures, and new kinds of cooperation across the community. I 
commend Congress for providing key authorities to the DHS intelligence 
efforts in support of our mission, particularly through the 
Implementing Recommendations of the 9/11 Commission Act of 2007. By 
elevating the head of Intelligence and Analysis to an Under Secretary 
level and significantly expanding the position's authorities to 
integrate and standardize the intelligence components, products, and 
processes of the Department, these authorities have provided an 
essential foundation for development of an effective Department-wide 
intelligence effort.
                      the dhs intelligence mission
    DHS intelligence authorities were first established in the Homeland 
Security Act of 2002, with additional authorities provided later in the 
Intelligence Reform and Terrorism Prevention Act of 2004 and, as 
mentioned previously, the 9/11 Commission Act. The specific mission of 
the Office of Intelligence and Analysis (I&A)--DHS' primary 
representative in the intelligence community--has been reinforced since 
the Homeland Security Act, including in the recent amendments to 
Executive Order 12333.
    The Secretary personally defined the role of intelligence in the 
Department as a result of his 2005 Second Stage Review, in which he 
emphasized that, ``intelligence is at the heart of everything we do.'' 
One central conclusion from this review was that the Department 
required a strong intelligence arm to focus on Departmental needs. As a 
result, the Secretary established the position of Chief intelligence 
Officer to lead and manage the integration of the Department's 
intelligence programs.
    When I arrived at DHS in late 2005 after the conclusion of the 
Second Stage Review, I committed to delivering results against the 
critical priorities identified by the Secretary. My overarching 
priorities for the DHS intelligence Enterprise have been:
  <bullet> Improving the quality of intelligence analysis across the 
        Department;
  <bullet> Integrating DHS intelligence across its several components;
  <bullet> Strengthening our support to State, local, and tribal 
        authorities as well as to the private sector;
  <bullet> Ensuring that DHS intelligence takes its full place in the 
        intelligence community; and
  <bullet> Solidifying our relationship with Congress by improving our 
        transparency and responsiveness.
    Before providing you the details of the progress we have made on 
these priorities, I want to emphasize the breadth of the customer set 
we serve. It is unique in the intelligence community. The DHS 
Intelligence Enterprise must effectively serve all homeland security 
customers, including all of DHS, our State, local, tribal, territorial, 
and private sector partners, and the intelligence community. Each of 
these customers has different needs.
    Let me start by discussing our fundamental responsibility to 
support our primary customer--the Department--including both 
headquarters as well as operational components. The Secretary defines 
the Department's mission as keeping dangerous people and dangerous 
goods from crossing our air, land, and sea borders and protecting our 
critical infrastructures. This requires having reliable, real-time 
information and intelligence to allow the Department to identify and 
characterize threats uniformly, support security countermeasures, and 
achieve unity of effort in the response. As you will see when I discuss 
our analytic efforts, I have aligned our intelligence efforts to 
support these needs.
    An equally important customer is our State and local partners--we 
must meet the intelligence needs of our State, local, tribal, and 
territorial customers. We are ensuring these stakeholders have access 
to our key intelligence and information capabilities, and the 
Department, in turn, has access to information obtained by these 
partners in the course of their operations.
    In addition, DHS Intelligence and Analysis is reaching out to a 
broad spectrum of private sector representatives. We have learned that 
private sector information requirements are not only numerous, but have 
become more complex as our private sector partners have become more 
knowledgeable about our capabilities to support them. As a result we 
have focused products and services to meet these particular needs.
    Finally, the intelligence community remains a key customer. DHS 
Intelligence and Analysis is a trusted member of the intelligence 
community, under the leadership of the Director of National 
Intelligence (DNI). My Office is taking its place in all the senior 
intelligence community forums, including serving as a member of the 
DNI's Executive Committee. We also contribute to the President's 
National Intelligence Priorities Framework, and prepare analytic 
assessments for the President's Daily Brief and the National Terrorism 
Bulletin.
            integrating the intelligence mission across dhs
    As noted above, one of my key priorities has been to create an 
integrated intelligence enterprise that unites the efforts of the 
entire Department. I have taken significant steps to build such an 
enterprise, for example, establishing the Homeland Security 
Intelligence Council composed of the heads of the intelligence 
components in the Department. It is the principal decisionmaking forum 
for ensuring effective integration of all of the Department's 
Intelligence activities. I also directed the creation of the DHS 
Intelligence Enterprise Strategic Plan. First issued in January 2006, 
it established a strong, unified, and long-term direction for our 
enterprise. We have just updated this plan to reflect our new 
authorities and responsibilities.
    These efforts were enhanced by the issuance of the DHS Policy for 
Internal Information Exchange and Sharing that was signed by the 
Secretary in February 2007. Referred to as the ``One DHS'' memorandum, 
its purpose is to promote a cohesive, collaborative, and unified 
Department-wide information-sharing environment. The Secretary expanded 
this policy in May 2008 when he issued the DHS Information Sharing 
Strategy, which provides strategic direction and guidance for all DHS 
information-sharing efforts, both within DHS and with our external 
partners.
                    improving intelligence analysis
    Intelligence analysis is at the very core of what we do and is why 
I made improving our analysis my top priority. It is driven by a 
dynamic threat environment; the need to support legacy, new, and ever-
expanding homeland security customers; and the need to respond quickly 
to emerging threats that require synthesizing intelligence from both 
traditional and non-traditional sources.
    Our analysis is focused on five critical areas that are closely 
aligned with the Secretary's mission priorities:
  <bullet> Border security to keep out dangerous people and materials;
  <bullet> Chemical, biological, radiological, and nuclear (CBRN) 
        threats as well as other health threats;
  <bullet> Critical infrastructure protection;
  <bullet> Demographics to understand the flow and movement of 
        potentially dangerous people; and
  <bullet> Radicalization in order to understand the development of 
        potentially dangerous ideologies in the domestic arena.
    Let me provide a little more detail about each of these.
Border Security
    I created a Border Security Branch--the first of its kind in the 
intelligence community--to fulfill a critical need for strategic 
intelligence on threats to our country's borders. To keep out dangerous 
people, my analysts track the full range of threats to our borders, 
including terrorists, special interest aliens, narco-traffickers, alien 
smugglers, and transnational gangs.
CBRN
    To help protect our Nation against dangerous materials brought 
across U.S. borders, I have established a CBRN Branch, that assesses 
the threats in-bound and globally. My analysts support other Department 
and interagency offices and programs, such as DHS' Domestic Nuclear 
Detection Office, the National Bio-Surveillance Integration System, and 
the National Center for Medical Intelligence. We provide detailed 
assessments that are incorporated into the design and development of 
high-tech sensors for harmful CBRN materials at airports and other 
sites. Our analysts also assess threats from pandemic diseases, such as 
avian influenza, and biological threats such as foot-and-mouth disease 
that could cross our borders and devastate our agricultural economy.
Critical Infrastructure
    To protect our critical infrastructure, our analysts assess the 
threats to each of the 18 critical infrastructure/key resource sectors 
in this country. We produce detailed assessments characterizing the 
threats to critical infrastructure in all 50 States, the National 
Capital Area, and U.S. territories, including baseline assessments on 
each of the 18 critical sectors. These assessments are routinely 
written with and shared with our State and local stakeholders.
Demographic Movements
    Our analysts also assess demographic movements around the world and 
into the United States to develop an accurate picture of dangerous 
people who might come to our borders. Using the mandate from the 9/11 
Commission Act, the DNI designated DHS as the lead intelligence 
community entity responsible for biennial Visa Waiver Program 
assessments. We independently assess the integrity and security of 
travel processes and documentation for each country in or applying to 
the program to address the potential for illicit actors--including 
transnational criminals, extremists, and terrorists--to exploit travel 
systems and the security environment that can facilitate unlawful 
access to the United States.
Radicalization
    Our analysts also are concerned about dangerous people inside our 
borders, especially those who are trying to recruit for or engage in 
violent extremism. We focus primarily on the process of radicalization, 
or how individuals adopt extremist belief systems that lead to their 
willingness to support, facilitate, or use violence to cause social 
change. I should add that we are concerned with all types of violent 
extremists, including racial supremacists, anarchists, eco-terrorists, 
Islamic extremists, and animal rights radicals. All of our analysis is 
performed while abiding by applicable rules that protect our citizens' 
rights to privacy and civil liberties.
                          information sharing
    Central to our intelligence responsibilities is the sharing of 
intelligence and information with the State and local partners as well 
as the entire intelligence community. DHS has a statutorily mandated 
role in information sharing as prescribed by the Homeland Security Act 
of 2002 and ensuing legislation. It has taken important steps to 
fulfill this role. I have already mentioned the important One DHS 
Memorandum that provides an essential foundation for the Department's 
information-sharing efforts. Other foundational pieces include the 
Department's Information Sharing Governance Board (ISGB) that serves as 
the executive level steering committee and decisionmaking body for all 
information sharing activities within the Department. I serve as chair 
for the ISGB. We also formed the DHS Information Sharing Coordinating 
Council (ISCC), an advisory, action-oriented body that is fully 
representative of the Department's many organizational elements.
    We are also establishing Shared Mission Communities (SMCs) within 
DHS. The SMCs are cross-cutting information-sharing efforts that 
address the need to build integrated cultures, processes, and policies 
that facilitate information sharing across organizational boundaries. I 
am pleased to share with the committee our efforts with the Law 
Enforcement Shared Mission community (LE SMC). The LE SMC was the first 
shared mission community to be established and unites the full breadth 
of DHS law enforcement elements to enhance information sharing among 
components, other Federal agencies, and State, local and tribal law 
enforcement elements.
State and Local Program Office
    Building and improving our relationships with State, local, tribal, 
and private sector partners is the cornerstone of the Department's 
information-sharing efforts. As the 9/11 Commission Act and the 
President's National Strategy for Information Sharing make clear, 
fusion centers are an essential part of this information flow and 
framework. As you know, I am the Department's Executive Agent for its 
program to support fusion centers Nation-wide. DHS is committed to 
providing fusion centers with the people and tools they need to 
participate in the Information Sharing Environment.
    DHS recognized the importance of these fusion centers and 
established a State and local fusion center program office in 2006, 
even prior to the enactment of the 9/11 Commission Act. Our program 
office is responsible for deploying intelligence officers to fusion 
centers Nation-wide. These officers are my representatives in the field 
who ensure that DHS is fulfilling its information-sharing 
responsibilities. Core activities of our intelligence officers include 
providing daily intelligence support; routinely communicating and 
exchanging information with other fusion centers; writing products for 
and with State and local partners; collaborating on research; and 
delivering intelligence products to all customers. Deployed officers 
provide analytic training opportunities and real-time threat warning 
guidance directly to State and local partners. These officers can also 
collaborate with FBI analysts to develop joint products.
    As of today, my Office has deployed 25 intelligence officers to 23 
fusion centers Nation-wide. Our goal is to deploy 35 officers by the 
end of 2008. DHS would like to eventually deploy up to 70 officers to 
the field, one to each State-designated fusion center as well as 
officers in several major cities. The presence of these important DHS 
personnel assets in the field has served to create strong personal 
relationships with our State and local partners. They serve as the 
front line of the DHS Intelligence Enterprise and help ensure that DHS 
is meeting these important customer needs.
    In addition, to meet specific State and local information needs, we 
have developed a national set of SLFC Priority Information Needs (PINs) 
that reflect the critical mission needs of fusion centers. We are using 
these PINs to expand analytic exchanges between fusion centers and I&A 
analysts and to drive I&A production planning.
Information Sharing Networks for State, Local, and Tribal Customers
    My office also provides these non-Federal authorities direct access 
to DHS intelligence and information through both classified and 
unclassified networks. A critical part of our efforts at the 
unclassified level is the Homeland Security Information Network's 
``Intelligence'' portal. Known as HSIN-Intelligence, this portal 
provides more than 8,000 people with access to unclassified 
intelligence products. More significantly, my office has created the 
Homeland Security State and Local Intelligence Community of Interest 
(HS SLIC). The HS SLIC is the first Nation-wide network of Federal, 
State, and local intelligence analysts focused on homeland security 
ever created in the United States. The HS SLIC is a virtual community 
of intelligence analysts that fosters collaboration and sharing of best 
practices and lessons learned through access to a special portal within 
the HSIN network. Through the HS SLIC, intelligence analysts 
collaborate via weekly For Official Use Only level threat 
teleconferences and biweekly Secret-level secure video teleconferences. 
Members are able to share intelligence and information in appropriately 
secure and privacy-sensitive environments. The community also sponsors 
regional and national analytic conferences based on the interests of 
its members. As evidence of its value and success, its membership has 
grown dramatically from a 6-State pilot in 2006 to now having members 
representing 45 States, the District of Columbia, and seven Federal 
Agencies. In addition, I have established an HS SLIC Advisory Board 
that includes State and local partners to advise me on issues relating 
to intelligence collaboration with our non-Federal partners.
    For our classified networks, we are in the process of deploying the 
Homeland Secure Data Network (HSDN) at fusion centers across the 
country. With this network, we are delivering, for the first time, 
classified threat information to State and local authorities on a 
regular basis. I believe this unprecedented type of communication will 
lead to a sea change in relations between Federal and State analysts. 
To date, we have deployed HSDN to 24 fusion centers Nation-wide and are 
working to have it in 40 centers by the end of this year.
    To further expand State and local connectivity to the intelligence 
community, HSDN provides access to NCTC On-line--a classified portal 
that maintains the most current terrorism-related information at the 
Secret level. Our long-term goal is for each fusion center to have not 
only HSDN access but its own web page to which relevant products can be 
posted and made available to other fusion centers and the broader 
intelligence community.
Protection of Privacy, Civil Rights, and Civil Liberties
    My office continually is taking preventative steps to ensure that 
the rights of American citizens are safeguarded; this is especially 
true as it relates to the State and Local Fusion Center program. DHS 
requires all deployed intelligence officers to take an annual 
intelligence oversight and information handling course that addresses 
proper handling of U.S. person information. DHS also collaboratively 
developed and is implementing privacy and civil liberties training for 
all its deployed intelligence officers, in accordance with the 9/11 
Commission Act.
Interagency Threat Assessment and Coordination Group
    DHS remains a full partner in, a leader within, and a staunch 
supporter of the Interagency Threat Assessment Coordination Group 
(ITACG). This group has become a critical mechanism for serving the 
information needs of our State, local, tribal, and private sector 
partners. Established at the direction of the President in his 
Guideline 2 report and the 9/11 Commission Act, it pulls together 
Federal and non-Federal homeland security, law enforcement, and 
intelligence officers from a variety of disciplines to guide the 
development and dissemination of Federal terrorism-related intelligence 
products through DHS and the FBI to our non-Federal partners. While the 
ITACG is integrated into NCTC, its mission is more expansive than the 
scope of the NCTC mission. The ITACG officers monitor sensitive 
databases, and screen hundreds of highly classified finished 
intelligence reports each day to determine what should be sanitized 
and/or enhanced for sharing with our non-Federal partners.
    The ITACG consists of two elements: The ITACG Detail and the 
Advisory Council. The Detail is the group of individuals who sit at the 
NCTC and conduct the day-to-day work of the ITACG. The Council sets 
policy and develops processes for the integration, analysis, and 
dissemination of federally coordinated information, as well as 
overseeing the ITACG Detail and its work.
    The Detail achieved initial operating capability just 8 months 
ago--on January 30, 2008. While fully integrated into the work and 
leadership at NCTC, the Detail is led by one of my senior intelligence 
officers who serves as the ITACG Director. The Deputy Director is a 
senior analyst from the FBI. The FBI and my Office have each provided 
an additional senior analyst to help with the operation of the Detail. 
Currently there are four law enforcement officers from State and local 
police departments, a tribal representative who works at NCTC, and two 
NCTC contractors with extensive experience in the intelligence 
community and State and local law enforcement assigned to the Detail. 
These non-Federal participants provide critical insight into the needs 
and perspectives of our State, local, tribal, and private sector 
partners. We are working hard to expand the number of non-Federal 
participants to 10 in order to include a broader range of State and 
local expertise.
    The members of the Detail have essential systems connectivity in 
NCTC, participate in key briefings, and are engaged in the NCTC 
production processes and activities that provide broad perspectives of 
the intelligence community. They then act as advocates for State, local 
tribal and private sector partners by informing and shaping 
intelligence community products to better meet the specific needs of 
State, local, tribal and private sector entities. They support the 
production of three types of reports: alerts; warnings; notifications; 
as well as updates of time-sensitive information related to terrorist 
threats to the United States; situational awareness reports regarding 
significant events or activities occurring at all U.S. levels and 
internationally; and strategic and foundational assessments of 
terrorist threats to the United States. In the event of conflicting 
reporting or as the need arises, the ITACG facilitates Federal 
coordination to ensure that reporting on threat information is as clear 
and actionable as possible.
    We have also established the ITACG Advisory Council that I chair on 
behalf of the Secretary. The Council, at least 50 percent of whose 
members must represent State, local, and tribal organizations, has 
become a robust organization with participation of its non-Federal 
members in all of its decisionmaking processes. Although the 9/11 
Commission Act requires that it meet a minimum of four times a year, 
its work is too important and too pressing to meet so infrequently. 
Instead, I directed that we meet in person or by teleconference 
monthly. Five face-to-face meetings have been held to date with the 
sixth scheduled for late October. Meetings in other months are 
conducted via teleconference--the next one is scheduled for this week. 
These meetings address a priority challenge that this new organization 
faces--especially recruiting outstanding State, local, and tribal 
personnel to serve on the Detail, establishing an attractive Fellowship 
Program for the selected detailees, developing formal mechanisms to 
ensure that information is getting to the right customers, and creating 
a feedback process tailored for State, local, tribal, and private 
sector customers. I am extremely proud of the team we have assembled--
both for the Detail and the Advisory Council--and expect great things 
from their continuing contributions to this critical work. I also am 
grateful for the strong support that I receive from Mike Leiter and 
NCTC in the overall management of the ITACG program.
               other accomplishments of dhs intelligence
    I recognize that this hearing is geared toward establishing a 
``report card'' on information-sharing activities of the Department. 
Information sharing, however, supports and is interwoven into key 
enabling programs managed by DHS intelligence. Therefore, I want to 
share with the committee the progress we have made in creating an 
integrated DHS intelligence program beyond just sharing information.
    Quite candidly, we are building a new departmental intelligence 
organization where one did not exist 3 years ago. We have had to 
recruit and train new cadres of intelligence officers, integrate 
existing departmental and external intelligence and information sharing 
functions, comport Department practices with intelligence community 
standards, and fundamentally define the realm of homeland security 
intelligence.
    Our intelligence is distinct from that of CIA, the FBI, NCTC, and 
elsewhere in the intelligence community as it encompasses the totality 
of threats to the homeland--not just terrorism.
Collection Responsibilities and Reforms
    I&A collection activities have improved support to our customers 
and enhanced our readiness posture relative to the Department's all-
hazards threat environment. We are the Department's collections focal 
point for delivery of intelligence community capabilities to the 
Department and to other Federal, State, local, tribal, private sector, 
and international partners.
    My office's mission is unique within the intelligence community as 
we are at the crossroads of the intelligence community and the 
Department's law enforcement organizations. For example, in 
coordination with the National HUMINT Requirements Tasking Center, we 
have developed the southwest and northern border National HUMINT 
Collection Directives (NHCDs) in support of U.S. southwest border 
enforcement initiatives. Collection directives provide the Department's 
components with the critical HUMINT reporting required to support 
Homeland Security operations. The border collection directives 
represent the first time DHS has led development of a national 
collections strategy.
    As part of our intelligence, surveillance, and reconnaissance (ISR) 
architecture, my office completed an ISR baseline for and in 
coordination with U.S. Customs and Border Protection. This baseline 
will help identify gaps and redundancies in order to facilitate the 
most informed ISR resource decisions, while allowing the Department to 
develop new capabilities and create enterprise-level collection 
management processes that meet tactical, operational, and strategic 
intelligence needs.
    The DHS Open Source Enterprise has been established to acquire and 
disseminate domestic open source information on homeland threat issues, 
and represents departmental and State and local interests in the 
National Open Source Enterprise's National Open Source Committee.
    I released the DHS Open Source Enterprise Strategic Vision on 
September 12 at the National Open Source Conference, which we co-hosted 
with the Office of the DNI and the Open Source Center. Our Open Source 
vision clearly establishes DHS' intelligence role as a focal point for 
open source among the homeland security law enforcement and first-
preventer communities. We are now implementing it and are in the 
process of formally documenting our actions through an Implementation 
Plan.
    We have a close and mutually supportive relationship with the 
intelligence community on Open Source. I have a senior executive who 
represents the homeland open source community on the National Open 
Source Committee (NOSC) and all sub-committees. We continue to provide 
open source reporting on the DHS homepage in Intelink-U, the DNI's 
unclassified information network, and began providing actionable open 
source reporting on the Homeland Security State and Local Intelligence 
Community of Interest web portal in March 2008. In sum, we have a 
robust program underway that is focused on State and local government 
support.
DHS Intelligence Products
    My office has successfully adjusted our production in response to 
communicated stakeholder needs. I streamlined my office's finished 
intelligence product line from more than 25 types of products to 6 
distinct, standardized products that are customer-friendly and better 
aligned to our core missions. Since 2005, we have disseminated 1,470 
finished intelligence products, the majority at the Unclassified/For 
Official Use Only level. Many of the most important products are 
collaborative joint products it co-authors with State and local fusion 
center personnel.
    My production elements house the reports officer program, which 
facilitates the timely sharing of homeland security-related information 
obtained by DHS components, State, local, and tribal partners, and the 
intelligence community. Currently, 19 reports officers are located at 
I&A headquarters; 18 others support DHS components and elements, 
including the Human Smuggling and Trafficking Center. In addition, two 
officers are deployed to State and local elements along the Southwest 
border and in Florida.
    My reports officers access and share valuable intelligence and 
information on topics such as transnational threats from the Caribbean 
and Latin America and sensitive information from ports of entry. This 
information is produced and distributed in the form of Homeland 
Intelligence Reports, or HIRs, and is precisely the granular level of 
information that is of greatest value to State and local authorities. 
Since 2005, I&A has produced, and disseminated 8,777 HIRs to State, 
local, and tribal partners and the intelligence community.
Intelligence Enterprise Training and Recruitment
    Intelligence training is critical to develop an all-source cadre of 
DHS intelligence professionals who have standardized knowledge and 
competencies across the enterprise. The keystone of the learning 
roadmap is our Basic Intelligence and Threat Analysis Course (BITAC), 
which provides a foundational understanding of intelligence and 
analysis tradecraft. We have piloted four iterations of the 5-week 
course to date, reaching students from across the Department's 
intelligence components. As a complement to BITAC, I am proud to 
announce that our Mid-level intelligence Threat Analysis Course (MITAC) 
started on September 15. This pilot is a 10-day course targeted at DHS 
intelligence components' mid-career (GS 12-14) personnel.
              additional dhs intelligence programs of note
National Applications Office
    The National Applications Office (NAO) will be on the cutting edge 
for supporting key DHS stakeholders. DHS has acquired and installed 
lawful and appropriate intelligence capabilities to allow the NAO to 
access commercial satellite data and national technical means. In 
preparation for production, the NAO has developed performance 
management metrics; a training plan to comply with the NAO charter 
requirements to train staff and affiliates regarding privacy and civil 
liberties safeguards; and a communications strategy. As a training 
exercise, NAO analysts assisted the National Geospatial-Intelligence 
Agency's preparation for the Democratic and Republican National 
Conventions and in support and response to Hurricanes Hanna and Ike.
    The NAO was designed with strong protection of privacy, civil 
rights, and civil liberties. DHS has worked with the Homeland Security 
Council and across the Federal Government to develop the now-signed 
charter for the NAO. The Secretary certified that the NAO charter 
complies with all existing laws, including all applicable privacy and 
civil liberties standards. Further, by law the Government 
Accountability Office (GAO) conducted a review of the Secretary's 
certification. DHS has incorporated GAO's two recommendations into 
various policy and procedural documents of the NAO. Thus, the NAO is 
prepared to begin operations to support the civil and homeland security 
domains.
Counterintelligence
    In January 2007, Secretary Chertoff directed the establishment of a 
DHS Counterintelligence Program to detect and deter the growing threat 
posed by foreign intelligence services, terrorists, and foreign 
criminal enterprises. At the Secretary's direction, I stood up a 
counterintelligence policy office within I&A. In conjunction with the 
DHS Office of Security, we have drafted a strategic plan and 
counterintelligence concept of operations, and sought review--working 
with the DNI's Office of the National Counterintelligence Executive--to 
ensure that the departmental counterintelligence program benefits from 
the intelligence community's experience and best practices.
Integrated Border Intelligence Program
    I&A's Integrated Border Intelligence Program (IBIP) fills a unique 
role within the Department as the only program that can collectively 
leverage State and local fusion center, intelligence community, and the 
Department's own dedicated intelligence collection, analysis, and 
reporting staff to strengthen intelligence support to and promote 
information sharing among border security and interior enforcement 
stakeholders.
    The Homeland Intelligence Support Team (HIST)--a key component of 
the IBIP--is co-located with the El Paso intelligence Center. The HIST 
serves as a conduit for providing stakeholders along the U.S. southwest 
border with reachback to intelligence collection, analytic expertise, 
and access to the intelligence community. The HIST's cadre of 
professional intelligence analysts and program managers uses its unique 
and routine access to information in order to pull specific, relevant 
information for the border mission stakeholders, and produce and 
disseminate reports with mission-specific comments and context.
Partnering with Operations
    I&A has been supporting the new DHS Office of Operations 
Coordination and Planning (known as OPS) since its inception in July 
2008. The Intelligence Division of OPS is a unit detailed from I&A to 
optimize and provide daily intelligence support to departmental and 
Federal interagency planning and operational coordination efforts. The 
Division's mission is to facilitate--at the departmental ``strategic 
operational'' level--development of a common threat picture and 
prioritized intelligence requirements, resources, and capabilities in 
support of contingency planning and operations coordination across DHS 
components.
    Highlights of the OPS Intelligence Division's efforts include 
identifying intelligence, surveillance, and reconnaissance personnel to 
support the DHS actions relating to Hurricanes Gustav, Hannah, and Ike; 
and leveraging DHS and intelligence community products to support 
incident response and recovery efforts.
Cybersecurity
    As a member of the intelligence community, my office supports the 
planning and execution of the administration's National Cyber Security 
Initiative, serving as a member of the Cyber Study Group. We have also 
placed intelligence analysts at the National Cyber Security Division's 
U.S. Computer Emergency Readiness Team (US-CERT) to enhance this 
partnership between DHS and its stakeholders to protect the Nation's 
cyber infrastructure. Our analysts provide threat assessments and fuse 
intelligence community information with daily intrusions monitored by 
US-CERT. We are developing plans for Homeland Intelligence Reports to 
include unique DHS information gleaned from US-CERT reports of 
intrusions and attacks against Federal networks.
                      challenges and the way ahead
    Despite the gains we have made, we need to remember that challenges 
continue as DHS intelligence remains a start-up effort and is still 
evolving. I see these challenges in four critical areas: Facilities; 
recruitment and retention; excepted service; and procurement and 
acquisitions.
    As our mission and work force have grown, we are working with DHS 
Facilities to ensure we provide adequate facilities and infrastructure.
    Throughout the Department and in the intelligence community, there 
has been a significant effort to recruit and retain an outstanding 
intelligence work force. As a result of the number of vacancies 
throughout the intelligence community and the private sector, I&A and 
its counterparts throughout the DHS Intelligence Enterprise are facing 
great challenges to fill our vacancies and retain the staff we have 
onboard.
    At times, our progress in recruiting and retaining the best and 
brightest has struggled because we cannot compete effectively with 
intelligence community agencies that have excepted service status. I 
recognize that several authorization bills contain language to grant 
DHS intelligence the same excepted service flexibility available to its 
partner organizations in the intelligence community. I strongly urge 
the committee to support enactment of excepted service authority for 
DHS intelligence to help us create the more unified and mobile 
intelligence work force envisioned by the 9/11 Commission Act and 
intelligence community reform.
    Another significant challenge for my office has been the ability to 
achieve timely planning, development, and execution of procurement and 
acquisitions. Working closely with the DHS Office of Procurement 
Operations we have made significant improvements in our acquisitions 
program and continue to work toward establishing the right contractual 
vehicles to meet our ever changing needs.
    Continuing the task of building a quality intelligence organization 
that can overcome these challenges is of critical importance as we move 
to a new administration. We are on the right track; we must now execute 
these programs.
                               conclusion
    On September 11, 2008, Secretary Chertoff wrote `` . . . [on 
September 11, 2001,] our country was senselessly attacked and nearly 
3,000 lives were tragically lost. That fateful day changed our Nation 
and our lives.'' Even though that day was over 7 years ago, the threat 
has not passed and our adversaries remain committed to doing us harm. 
They have been foiled by many factors, including the dedicated men and 
women of the Department of Homeland Security who defend our Homeland 
every day.
    To enable and support our critical departmental mission, we are 
developing and honing homeland security intelligence. DHS intelligence 
programs are young and growing, but we are working hard and with 
increasing effectiveness to create integrated homeland security 
structures where the operating components and DHS headquarters elements 
work together. We are also making good progress to provide a unifying 
role--developing and integrating the Department's Information Sharing 
activities. My intention today was to crystallize these major 
accomplishments in such a short time as well as to focus on the 
challenges that we still need to overcome.
    We remain committed to protecting the homeland, to improving our 
analysis and information sharing--especially with our State and local 
partners--and to integrating DHS intelligence programs. In doing so, we 
scrupulously adhere to the protection of our cherished privacy and 
civil liberties rights. Protecting our Nation from the myriad of 
threats that we face requires courage and resolve. It is my steadfast 
belief that our accomplishments show we are up to the task.

    Ms. Harman. Thank you, Mr. Allen. I understand that the 
clock is malfunctioning and is not visible. But you did quite a 
good job of keeping to the time, and I expect Mr. Leiter will 
do the same.

      STATEMENT OF MICHAEL E. LEITER, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. Thank you, Chair Harman and Mr. Reichert, Mr. 
Dicks.
    Actually, in an effort to get to a discussion rather than 
having this be a hearing, adversarial or not, I am going to 
skip over a lot of what I had prepared. I want to give you five 
areas where I think we have improved significantly, because it 
is supposed to be a scorecard and a grade. I want to tell you 
what we have done in the last 6 months, and then I want to at 
least briefly touch on some of the questions that were posed by 
my three State and local colleagues.
    First, 6 months ago, the National Counterterrorism Center 
did not actually have a daily product at a secret level. We had 
it at top secret and compartmented that went out to State, 
local, tribal, private sector. Today, we do. Today, every day, 
Monday through Friday, we produce a secret document that is 
available in State local fusion centers and JTTF outlining all 
of the major activities that are going on in terrorism 
throughout the world. That is an improvement, and I think it is 
a very good thing.
    Second, 6 months ago, frankly, the interface that State and 
local government had to get secret level documents from NCTC, 
NCTC online secret was lousy. It was antiquated. It didn't look 
like Google. It looked like kind of AOL 1.0. Today, it is 
vastly improved; and, frankly, it is better than what Federal 
officials get. It is user friendly, and people can find what 
they need. That is tangible improvement, if you ask me.
    Third, expanding access to unclassified material. NCTC does 
not focus on the unclassified. Understanding the value and 
importance of that, we focus our work at the top secret for the 
Federal Government and then down to the secret and confidential 
for State and local officials with some unclassified. But we do 
produce unclassified material. The fact is, we didn't have any 
way to actually get that out to State and local officials 6 
months ago. Today, we now have agreements, and we are currently 
posting it through both the Homeland Security Information 
Network and FBI's law enforcement on-line so they can get those 
documents that we are actually producing.
    Four, we had started the ITACG 6 months ago, and it was 
good, and we had quality people, but it was not firmly 
established. Today, we already have plans and have begun the 
recruiting and have succeeded in some of that recruiting to 
expand to 10 local officials, not just police but homeland 
security, Health and Human Services. We just hired our first 
firefighter from Seattle, I would add. These are people who are 
sitting full-time time in our spaces. Frankly, I see them 
virtually every day; and I think they are doing an outstanding 
job.
    Finally, fifth, and this may sound bureaucratic, but it is 
incredibly important. We had a hard time recruiting 6 months 
ago to get team people to come to the ITACG. We have changed 
that radically. With the cooperation of DHS and FBI, we have 
made equivalent the pay that these people are getting; and we 
provided them, frankly, with more incentives to come work for 
the Federal Government than I think any other position in the 
Federal Government.
    I just spoke with the FBI yesterday. Members of the ITACG 
will now have preference when they apply to the FBI National 
Academy, critical for State and local law enforcement officers.
    Charlie and I are now working on a system to get them 
credit to integrate them into George Washington University's 
programs for advanced educational credits. So we have done 
everything we can in this Government and, frankly, some very 
innovative things to make this a place that they want to come.
    Now, those are just some things we have done, and I wanted 
to give you the tangible examples. There are a lot of things we 
still have to do. We have to continue to grow and expand the 
breadth, scope and number of our terrorism information and 
product sharing. These are the documents the ITACG helps shape 
specifically for State and local governments. We have to get 
more of them.
    But I do want to note in the last year, from June of last 
year to July of this year, NCTC has increased by 250 percent 
the number of secret level reports that we have issued for 
State and local use. Two hundred and fifty percent in a year 
isn't too bad, and it is because of a concerted effort to get 
that information out.
    Second, one thing that we are working on and I think will 
help is for the first time we are actually going out and 
surveying State and local governments to understand what they 
need. Although we imagine what they need, we don't always know. 
So we are going to ask that question. We are doing that in 
conjunction with DHS, FBI and the ODNI; and I think that will 
be positive.
    Finally, something I mentioned to Ms. Harman recently, we 
have produced the first-ever user's guide to Federal 
intelligence for State and local partners, and it is user-
friendly. It doesn't have nearly as many acronyms that are, 
frankly, in most of our testimony and covers how you use 
Federal intelligence, explaining sourcing, what types of 
products are available. I believe this will be a useful tool.
    Last, I want to note that we have expanded our outreach 
largely using the ITACG significantly. We are looking for ways 
to bring State and local officials into the Federal Government. 
So one initiative, Ms. Harman, that we have spoken about 
previously is the LAPD obviously has done a fantastic job; and 
we have now fundamentally poached their lead on the suspicious 
activity reporting and bringing them to NCTC. Working with 
Chief Bratton and Deputy Chief Downing, we have now recruited 
to have Commander McNamara come from the LAPD to NCTC to help 
us understand what would be useful.
    Now in a brief minute of time--because I will note that 
Charlie went over by 2 minutes, so I also get another minute 
and 30 seconds----
    Mr. Dent. You are very astute.
    Mr. Leiter [continuing]. I do want to note very quickly 
three questions.
    First, Sheriff Baca, how do we incorporate fusion centers 
into a comprehensive national solution? I think this is a very 
fair question and one that Charlie and, very importantly, the 
FBI and I have been discussing more. Because, frankly, it is 
not just about State and local fusion centers. It is also 
making sure that they are integrated regionally and they are 
well and effectively coordinated with the corresponding Joint 
Terrorism Task Forces.
    So I think it is a fair criticism to say we are not there 
yet, but this is something that we have been building. So you 
have to have it built before you know exactly what you are 
going to do with it.
    Second--I am going to skip to Mr. McKay--the question of 
how do we incorporate State and local tribal information into a 
Federal model. Let me just note there are huge civil liberties 
associated with this; and we can't dive into it too quickly 
because not all information, from my perspective, is 
counterterrorism information. We simply have to move this 
intelligently because, otherwise, we can put ourselves in a 
very bad position.
    Third--and I left my friend, Russ Porter, for the last--is 
when are we going to get serious about domestic terrorism and 
getting info to the street? Accepting the last part of that, 
when are we going to get serious about getting information to 
the street? I have tried to explain some of the ways we are 
doing that. But I will challenge him on the premise of when are 
we going to get serious about domestic terrorism.
    I can tell you, from my perspective, every day, I don't 
care if it happens in Pakistan, Peshawar, or Philadelphia, it 
is terrorism. It is not going to make a bit of difference to me 
if Americans are killed by someone from Pakistan or domestic 
terrorists in Philadelphia. There is no question in my mind 
that the Department of Homeland Security, FBI and NCTC are 
deadly serious about domestic terrorism.
    Thank you for your time.
    [The statement of Mr. Leiter follows:]
                  Prepared Statement Michael E. Leiter
                           September 24, 2008
                              introduction
    In October 2007 the President issued his National Strategy for 
Information Sharing. This strategy sets forth his vision for 
establishing a more integrated information sharing capability aimed at 
ensuring that those who need information to protect our Nation from 
terrorism receive that information. The Director of National 
Intelligence (DNI), in his role as the leader of the intelligence 
community, has guided the community's implementation of key parts of 
the President's strategy to include the establishment of the 
Interagency Threat Assessment and Coordination Group at the National 
Counterterrorism Center (NCTC). Under the leadership of the DNI, NCTC, 
along with our partners at the Department of Homeland Security (DHS) 
and Federal Bureau of Investigation (FBI), continues to make the timely 
flow of accurate information to our State, local, and tribal (SLT) 
partners a critical mission priority and focus. Through a variety of 
activities, including meetings with city, State and regional law 
enforcement and security officials, presentations at key law 
enforcement conferences and training centers, as well as briefings and 
training sessions at State and Local Fusion Centers, NCTC informs SLT 
partners of the Center's mission, its capabilities and the range of 
intelligence products available to them. Working closely with our key 
Federal partners, we provide SLT organizations with terrorism 
intelligence analysis and other appropriate information needed to 
fulfill their missions. Finally, we inform and help shape intelligence 
community products by providing advice, counsel, and subject-matter 
expertise to better meet the needs of our SLT partners. Let me briefly 
elaborate on some ways in which NCTC has facilitated improved 
information sharing with our State and local partners.
               nctc's perspective on information sharing
    The NCTC understands the importance of preparing intelligence 
products that address the counterterrorism concerns of SLT agencies. As 
a result, the NCTC launched the Terrorism Summary (TERRSUM)--a SECRET 
collateral digest of terrorism-related intelligence of interest to 
Federal and non-Federal law enforcement, security and military 
personnel. Produced Monday through Friday, the Terrorism Summary 
includes terrorism-related intelligence available to NCTC and other 
intelligence community elements. The product is posted on NCTC Online-
Secret (NOL-S) and is available to State and Local Fusion Centers 
Nation-wide via a number of SECRET-level networks. Thanks to DHS, there 
are 300 State and local analysts with access to NOL-S through their 
accounts on the Homeland Secure Data Network (HSDN) system installed in 
fusion centers around the country. The Terrorism Summary joins existing 
products designed to support SLT entities, including the Threat 
Review--a SECRET collateral compilation of terrorist threat reporting 
received at the Federal level and the Terrorism Intelligence Product 
Sharing (TIPS) product line. TIPS products provide SLT consumers 
increased access to NCTC finished intelligence analysis through the 
accelerated review and sanitization of highly classified products for 
publication at the SECRET level.
    We recognize the need for improved dissemination of products and 
making our intelligence as accessible as possible to our SLT partners. 
The ITACG has worked closely with NCTC's software developers to improve 
the NOL-S portal to ensure that the ``look and feel'' of the portal is 
conducive to SLT partners' needs especially at the State and Local 
Fusion Centers Nation-wide. As a result, the new interface is more 
intuitive and easier to use. In addition, the portal contains a greater 
number of products and more up-to-date counterterrorism information 
from throughout the intelligence community. We have begun incorporating 
additional recommendations from the ITACG into the next version of the 
portal interface.
    To better understand the needs of SLT authorities, the ITACG has 
prepared a survey in coordination with the FBI, DHS, and the Program 
Manager--Information Sharing Environment (PM-ISE). The survey will help 
the intelligence community understand how well its intelligence 
products are received by SLT consumers of intelligence, the 
difficulties that SLT organizations may encounter trying to receive 
intelligence products, and how to better address the SLT need for 
intelligence. The survey is undergoing final review, and will be 
disseminated to the field shortly.
    The ITACG has also identified several instances where intelligence 
community ``For Official Use Only'' (FOUO) products were not easily 
accessible to SLT organizations. These products were perfectly suited 
for SLT consumers of intelligence, but were not previously available on 
official UNCLASSIFIED systems. The ITACG negotiated the posting of 
these products onto DHS' Homeland Security Information Network--
Intelligence (HSIN-I) and FBI's Law Enforcement Online (LEO), the 
primary vehicles through which SLT entities access unclassified 
counterterrorism, homeland security and WMD information. Today, our SLT 
partners, particularly State and Local Fusion Centers around the 
country, can access information from NCTC, the Department of Defense, 
and other agencies via HSIN-I and LEO.
    The ITACG is also drafting a reference guide for SLT consumers of 
intelligence. This SLT Glossary will help SLT entities better 
understand source statements and estimative language found in 
intelligence community threat products, so that SLT decisionmakers can 
appropriately address threat reporting within their jurisdictions. This 
glossary contains a list of acronyms, abbreviations, and terminology 
typically found in intelligence reporting and used within the 
intelligence community that will assist SLT intelligence consumers 
better understand the context of the reports they receive.
    The ITACG will continue to evolve. In consultation with our 
Federal, State, local and tribal counterparts on the ITACG Advisory 
Council, we are in the process of expanding representation on the ITACG 
Detail. The Detail currently consists of four State and local law 
enforcement officers and one part-time tribal representative. We hope 
to increase those numbers to a total of ten State and local personnel, 
including a full-time tribal representative, a firefighter, a health 
and human services representative, a homeland security officer, and a 
State and local intelligence analyst. This will allow ITACG to provide 
perspectives beyond law enforcement to intelligence community 
reporting. Additionally, having given greater consideration to the 
level of responsibility of the ITACG Director, we have proposed making 
the ITACG Directorship a Senior Intelligence Service-level position. 
This will place the ITACG leadership on a more even playing field with 
its intelligence community and SLT partners, and reflects the level of 
commitment the intelligence community has made to ensure the success of 
ITACG.
                             the way ahead
    NCTC, indeed the entire intelligence community, understands that we 
must continue to stress the dissemination and access of 
counterterrorism, homeland security, and weapons of mass destruction 
(WMD) information to our SLT consumers of intelligence. Increased 
access will allow SLT entities to more effectively identify, pre-empt, 
and respond to terrorist threats. To accomplish this goal, we will 
collectively need to expand the number of SECRET clearances granted to 
SLT partners; we also need to continue to build upon the work that has 
already been done to streamline and expedite the security clearance 
adjudication process. SLT consumers of intelligence will also require 
greater access to SECRET intelligence information technology systems. 
DHS has and continues to increase the number of HSDN sites Nation-wide.
    Intelligence community leaders will need to continue encouraging 
their analytic organizations to prepare FOUO versions of their products 
whenever possible. Additionally, we must continue to encourage the 
production of intelligence reporting which directly addresses the needs 
and concerns of SLT entities. The ITACG will continue its outreach to 
intelligence community analytic entities to promote the production of 
intelligence products written at the FOUO level and tailored for SLT 
consumers of intelligence.
    NCTC also believes that increased Federal and State and local 
analytic interaction, especially with State and local fusion centers, 
has shown demonstrable and positive results and should be further 
expanded. Periodic, formal, intelligence community-sponsored, SLT-
focused forums serve to enhance information sharing by cementing the 
Federal and SLT intelligence partnership. Analytic forums--such as 
NCTC's ``Current Terrorist Enemies of the United States: Prospects for 
a New U.S. Administration'' and DHS' Homeland Security--State and Local 
Intelligence Community of Interest (HS-SLIC) ``National Analytic 
Conference: Domestic Extremist Subcultures in America''--are crucial to 
developing our SLT analytic counterparts. Continued and expanded 
outreach to SLT agencies is vital to everyone's success in this 
critical mission.
    Information sharing is among NCTC's and our intelligence community 
partners' highest priorities, and significant progress has been 
achieved. Challenges to information sharing remain as we seek the 
proper balance between and among a host of technical, legal, security 
and privacy issues; however, as NCTC and our partners at DHS, and FBI 
and PM-ISE are committed to ensuring information sharing between the 
Federal Government and our SLT partners continues to improve.

    Ms. Harman. Thank you, Mr. Leiter.
    Thank you both for addressing questions posed by the prior 
panel. The subcommittee sees enormous progress in both of your 
operations. I said that at the beginning, and I think your 
testimony has really nailed it in terms of what has changed.
    I now yield 5 minutes to Mr. Dicks for questions.
    Mr. Dicks. Charlie, let me ask you this. On the fusion 
centers, is it a question about funding this, how it is 
financed? I mean, I know you are sending out an agent to each 
one of these things. But hasn't there been some concern by the 
locals? They think the Fed should fund this? Or can you tell me 
about that?
    Mr. Allen. I certainly can, Congressman.
    The funding issue is a policy decision that is reached by 
the Secretary and by the Department in consultation, obviously, 
with the Office of Management and Budget. Our job, of course, 
is to provide the information, put the officers out. In some 
fusion centers we have more than one officer. In fact, we hope 
to put multiple officers in some of the major fusion centers.
    But the funding issue is a very serious one. We do the 
threats. We do the domestic threat working with NCTC, working 
with the FBI. We look at the grants, urban assistance grants. 
There are State grants, port grants, transportation grants. We 
participate fully in the threat side, but the decisions 
ultimately are made at the policy level as to what money should 
flow.
    The UASI grants are very vital for the fusion centers to 
stay on. I took a position that after 2 years the Federal 
Government was not going to fund intelligence analysts. The 
Secretary did a recon with OMB, and we have extended that for 3 
years. We are very sensitive to that. There is a lot of--some 
of these fusion centers are very immature, some are very 
mature, and they do need assistance.
    Mr. Dicks. I just think that somehow we have to work this 
out, to make it as easy as possible for the States to use their 
grants. Or maybe we ought to have--maybe we ought to authorize 
it and fund it. I mean, this is such an important part of our 
approach here to have these things work effectively locally. I 
believe that you are going to get a lot of the potential 
threats, suspicious activities.
    You know, we had the situation in California where these 
guys were in prison and then they came out and there was some 
good police work locally that maybe stopped a terrorist attack. 
To me, we have got to make these fusion centers work. It is not 
that much money. I mean, think about all the money we are 
spending on homeland security. We have got to figure out a way 
to do it. I just think it is unacceptable.
    Ms. Harman. If you will just yield to me, and I will give 
you additional time. The bill that we offered in the 
subcommittee on sustainment funding is now poised to pass the 
Senate. So we are making a dent in this problem.
    Mr. Dicks. I just think we have to figure out an answer to 
it. I know this administration has been very tight on money. I 
am a subcommittee chairman on Appropriations. I know what they 
have done to my bill. It is not easy, and we have a major 
problem here with the budget. So I take that seriously.
    The other thing is, I am glad to hear that you are taking 
this seriously. I mean, we just heard three individuals testify 
before you, people who have had enormous experience, and they 
still are saying to us, we have a ways to go yet. We haven't 
finally gotten there.
    But it seems to me, Mr. Leiter, what you just said in your 
five points is that we are making some serious progress on 
this. I just think that this information sharing and working 
this thing out and then having it sustained so that everybody 
can be confident that it is in place and the information is 
going to flow and it is going to be funded, somehow we have 
to--we just can't dump this back on the locals. I mean, this is 
like an unfunded mandate, I think. I mean, this is a national 
problem; and we are asking them to help us work in these fusion 
centers. I think we have to step up and make it possible for 
the grants and other things to be utilized or directly funding 
this initiative.
    That is all I have. Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    Mr. Shays is now recognized for 5 minutes.
    Mr. Shays. Thank you very much.
    Before September 11, the committee I chaired was called the 
National Security Subcommittee of Government Reform; and one of 
the things that we were struck with was that there was so much 
information that was available that was not classified. Then we 
have had hearings where some think that we overclassify 90 
percent. In other words, we should classify 10 percent of what 
we classify. Then we even had DOD say at least 50 percent of 
what they classify probably shouldn't be. Then we have ``for 
official eyes only'' and so on. Can each of you speak to the 
danger of overclassification? Not in any great length. But tell 
me what is the danger. There is a danger to overclassification. 
I want to know how you define the danger.
    Mr. Allen. Well, historically, Congressman, we have 
protected sources and methods; and we have overprotected them 
even during the Cold War. We have found that in information 
sharing, you can shred out the basic facts, hide and protect 
sources and methods and get the information out. This is the 
reason ITACG is so valuable to us. This is a reason my embedded 
officers----
    Mr. Shays. Thank you. But I just want to make sure that I--
but is that the only danger? It seems to me another danger--
well, let me hear from you, Mr. Leiter, first.
    Mr. Leiter. Congressman, the preeminent danger to me and 
this is a danger----
    Mr. Shays. Of overclassifying?
    Mr. Leiter. Yes--was in some ways much less important pre-
9/11. Is if the information is not getting to the operators in 
the field who get need to get it----
    Mr. Shays. Yes. So isn't it a fact that--this isn't a trick 
question. This is just the reality. Isn't it a fact that with 
your fusion centers we are dealing with classified information; 
and so, in some cases, they may know things that they can't 
tell their fellow coworkers because it is classified?
    Isn't one of the dangers of overclassification--I mean, you 
said it, I think. But let me emphasize it. Isn't the real 
danger of overclassification is that too few people end up 
knowing what they need to know and too many people don't know 
what they need to know?
    Mr. Leiter. It is. But let me raise two points. One, this 
is not something which is different in national security 
matters than any other law enforcement investigation. People 
may be working with an undercover that they don't want every 
police officer on the street to be aware of. You have to create 
systems whereby you can run those operations, protect your 
sources----
    Mr. Shays. I understand why you have to protect your 
source. I understand why you have classified material. But, in 
our hearing, outside sources thought--who used to be in 
intelligence thought we were overclassifying.
    Mr. Leiter. I agree wholeheartedly, Congressman.
    Mr. Shays. So it would strike me that those in intelligence 
have to keep working at ways to make sure that we are not 
overclassifying.
    Ms. Harman. Would you yield to me for 1 second, Mr. Shays? 
I will give you additional time.
    That is just to say that we passed a bill here, the House 
passed it about a month ago, on overclassification. Because we 
feel so strongly that the only reason to classify is to protect 
sources and methods and not to protect somebody from political 
embarrassment or protect turf, a point made repeatedly.
    I just wanted to--sir, I think it is different in 
counterterrorism than it is in a classic law enforcement case, 
because the stakes are so high. I mean, if overclassification 
prevents one of these cops on the beat from uncovering the plot 
to put the huge fertilizer bomb on the truck that blows up LAX, 
I think that that is a horrible consequence. I just wanted to 
state--and I will yield back to you--my view that this is a 
hugely important issue; and I am very disappointed that, at 
least as of yet, the Senate hasn't seized this issue.
    Mr. Shays. Well, if anyone knows about this, it would be 
someone like yourself who has been on the Intelligence 
Committee and with such an active and central----
    Yes, Mr. Allen.
    Mr. Allen. Congressman, things have changed I think 
dramatically, because we are getting that information out. We 
published and reviewed by the ITACG hundreds of advisories, 
some may be threat warnings, threat assessments like we did on 
the weekend because of the Marriott bombing. But we put out a 
lot of foundational work, working with the NCTC and the ITACG 
and the FBI, which is very useful; and we have got a lot of 
stuff out there for official use which can be brought down to 
the lowest first responder.
    On clearances, when I came there we weren't clearing anyone 
at the State and local. I have cleared at the secret level 
1,500 officers.
    Mr. Shays. Let me congratulate you on that. Because that is 
another problem, and it is hugely important.
    Mr. Allen. Yes.
    Mr. Shays. Let me just quickly ask Mr. Leiter. It is my 
sense that when we are talking about open source data where we 
can use computers to, you know, to just see relationships, that 
would happen more likely I would think in the National 
Counterterrorism Center than it would in the different fusion 
centers around the country. Can I feel comfortable that open 
source data is getting integrated?
    Mr. Leiter. I have representatives from the open source 
center embedded in the National Counterterrorism Center, and we 
routinely use it both domestically and overseas to link with 
classified information, yes.
    Mr. Shays. Thank you. Thank you both.
    Mr. Allen, I just have to say, you have that classical look 
of someone in intelligence; and it makes me feel very 
comfortable that you are there.
    Mr. Allen. Thank you, sir. I appreciate that.
    Mr. Leiter. Congressman, may I ask--and this is not a trick 
question, either--are you suggesting that I don't provide you 
with that?
    Mr. Shays. I am just saying you both are a wonderful team 
and collectively you carry the whole gamut. Good question.
    Ms. Harman. Thank you, Mr. Shays. Your time has expired. We 
all think you give us confidence, too. So we want to observe 
this.
    Mr. Reichert is now yielded time for 5 minutes of 
questions.
    Mr. Reichert. Thank you, Madam Chair.
    Great to have you both again, and thank you for taking time 
to come and visit with us and answer further questions.
    You do make a great team, and I just want to take a moment 
to specifically thank Mr. Allen for his service to our Nation. 
You didn't have to take on this challenge over the past 3 
years, but you did, and the Nation is better for it. So thank 
you, sir.
    Mr. Allen. Thank you, Congressman. My wife agrees. I didn't 
have to take this on.
    Mr. Reichert. Maybe we should call her as a witness next 
time.
    Just to touch on that topic a little bit more, you know, as 
you heard the first panel testify, they suggested that there 
might be a disconnect to your leadership to the field. I can 
certainly understand that, that that is a national--you are one 
man, and this is a national effort. So a disconnect I think 
would be a natural phenomena that people would experience. But 
Sheriff Baca mentioned specifically that you might need some 
help.
    Mr. Allen. Sheriff Baca is one of the very wiser 
individuals across this country in law enforcement and 
information sharing. I think I do have the authorities and 
responsibilities to be able to work with my colleague here and 
with the FBI in particular to get the information out. It is 
just that we are very early in this process. The 9/11 bill that 
was passed gave me significant authority to direct that 
information sharing on behalf of the Department and to unify 
the Department intelligence activities.
    Bureaucracy grinds slowly in Washington sometimes. So I 
have not achieved as much as I wanted to in the last couple of 
years, particularly in integrating intelligence across the 
Department. But I am working on it very hard.
    But I think I have the authorities, and I certainly have 
the support of Secretary Chertoff. So it is just a matter of 
grinding on, working with the NCTC, working with the ITACG, 
working with my officers out in the fusion centers and working 
with my good friends at the FBI, where we have a very rich 
relationship.
    Mr. Reichert. I just want to ask one more question, Madam 
Chair; and that is related to also some comments that were made 
by Sheriff Baca that have been a concern of mine and were a 
concern of mine when I was the sheriff in Seattle. That is the 
grant process. As it is set up, it is housed now essentially 
under the FEMA side of Homeland Security and does create some 
consternation for the law enforcement world in not feeling like 
there is enough attention paid to the needs of those sheriffs 
and police chiefs across the country. Do you see that as an 
area where we need to do some additional work? Have you 
listened those concerns and taken a look at a solution that 
might apply?
    Mr. Allen. I have listened to those concerns, and I have 
similar concerns. I do believe that part of it is--my 
responsibility is to reach out to Chief Paulson, Under 
Secretary at FEMA, and to his Deputy Director. We are building 
closer relationships so that--and we brief them regularly on 
the threat, foreign and domestic, so that they know as they 
make decisions and make recommendations of the Secretary, final 
funding decisions, that the threat is fully represented.
    In my view, we need to get the threat a little higher in 
the overall algorithm by which those decisions are made. That 
is my personal view, and I am going to push toward that goal.
    Mr. Reichert. Okay. Thank you, Madam Chair. I yield.
    Ms. Harman. Thank you, Mr. Reichert.
    I now yield myself 5 minutes of questions.
    Again, I want to observe that enormous progress has been 
made; and this hearing record is very different from the 
hearing record we would have had 2 years ago. I am sure both of 
you agree. You are nodding your heads. I think a lot of the 
credit for that goes to State, local, and tribal entities who 
have helped us push in the right direction not as your 
adversary, Mr. Leiter, but as your partner, which is I think 
our correct role, to make this more seamless. We have all 
pointed out that if the information about what to look for and 
what to do is not in local hands, the chances of our unraveling 
the next plot are far slimmer. No one is disagreeing with this.
    I want to now come back to privacy and civil liberties, 
because it is a conundrum. Clearly, what we want to do is 
collect the right information that is accurate and actionable 
and timely in these fusion centers. They are not spy units. 
That has been alleged. That is false. They are units that fuse 
information collected elsewhere, hopefully in products that are 
useful. So we want to do that correctly.
    I think most of us believe that one size does not fit all 
because different regions have different needs. I personally 
have been to a number of these places. They all look different 
for a reason, I believe, because the needs are different. But, 
on the other hand, everyone believes that strict privacy and 
civil liberties protections have to apply.
    Now Sheriff Baca asked you both this question: How do we 
build a more robust national capability that is closer to a 
one-size-fits-all capability? You, Mr. Leiter, said, ooh, 
problem, civil liberties problem.
    Could I ask you both to elaborate on this? Are we better 
off trying to standardize and impose Federal standards that are 
existing Federal standards on this? Or are we better off not 
doing that and making sure there is rigid training at the local 
and State levels? Or is a hybrid a better model?
    Mr. Leiter. Madam Chair, if I suggested that a network of 
fusion centers posed significant civil liberties concerns I 
think that leaves you with the impression that I think fusion 
centers pose such a problem to start. I think the record of the 
fusion centers is outstanding. They are collecting information. 
They are not spying. They are conveying it.
    I do think that there are potential civil liberties issues 
with every bit of information concerning every traffic stop, 
for example, being sent to the National Counterterrorism 
Center. That is, I think, far beyond our mandate and more 
information sharing than we should actually seek.
    Sheriff Baca's point, I took it to be: Do we have a clear 
plan to make sure that all the fusion centers out there--which 
undoubtedly in my view will have to stay hybrid. There is no 
one size fits all. You are absolutely right. What works in L.A. 
is different than what works in Seattle, different from Kansas 
City and so on. But that whatever models you have out there, 
they are all linked together in a sensible way and then linked 
back to Washington.
    That is the challenge. We have built these fusion centers. 
We have built JTTFs. They work incredibly well together. But do 
we then have a regional system that then feeds back to 
Washington consistent with civil liberties protections? From my 
perspective, Sheriff Baca is correct. Charlie and I and the 
Director of the FBI and the like have to work harder at coming 
up with that sensible system to link all of this together 
consistent with civil liberties.
    Ms. Harman. Mr. Allen.
    Mr. Allen. Madam Chair, I support what Mike has said as far 
as privacy, civil rights, civil liberties. That is very much on 
our mind. There are massive amounts of data at the local level 
that are not necessarily related to our security.
    But there are a lot of data that we harvest, and I have 
about 40 reports officers assigned around the country in 
addition to my embedded officers who do report information that 
is lawful and legally collected that is of a national security 
and particularly of terrorism interest. We are moving out to 
build a national fusion center network. It is happening 
naturally, as fusion centers begin to work together, as regions 
begin to work together.
    For that reason, in addition to my embedded officers, I 
have now appointed regional coordinators or circuit writers. I 
have an officer who focuses only on the Southeast, one that 
focuses on the Northeast, one that focuses on the Midwest.
    Ms. Harman. Are all of them aware of civil liberties and 
privacy concerns?
    Mr. Allen. They are all rigorously trained in civil rights 
and civil liberties. I have four lawyers who hover around me 
every day. So we absolutely do give them rigorous training. 
They know what can be harvested and what can't.
    We have put out about 3,000 homeland intelligence reports, 
HIRs, which is a raw intelligence report. Some of them, I and 
my senior officers say, no, that doesn't quite meet the 
standard. We do not have reasonable belief in this case for 
reporting this out to our Federal partners.
    But I think we have a very high standard for privacy, civil 
rights, and civil liberties. I am very comfortable in that 
arena. We have a lot of work to do to build this network of 
fusion centers and regional centers, as was pointed out by Mr. 
McKay. But we are on our way, and we are doing the right thing 
right now.
    Ms. Harman. Thank you, Mr. Allen.
    I often say that privacy and civil liberties are not a 
zero-sum game. We either get more of both or less of both. 
Actually, the first fellow who said that was named Ben 
Franklin.
    I would just like to remind you and our Members and our 
audience of what Mr. McKay said, that if some other attack 
comes, the first thing that goes is going to be our 
Constitution and some of our rules, and that is not something I 
want to see. We have got to get this right, right now.
    We are now going to do something unorthodox.
    Mr. Allen, I know you have, I think you said, 5 more 
minutes. Our first panel is still here; and in the spirit of 
information sharing, I am offering to our first panel the 
opportunity to take the mic and make any additional 
observations you would like to make since you have heard the 
testimony of the two Federal witnesses. You can be shy and hide 
out, but I knew Leroy Baca wouldn't be shy. Do identify 
yourselves for the record.
    Mr. Allen, let me add that we will understand that you have 
to leave in 5 minutes. But I appreciate your staying to hear 
any comments focused on the conversation we have been having.
    Mr. Baca. Let me say, first of all, the testimony of our 
colleagues is one of not only collegial admiration amongst all 
of us here, it is the fact that we, both from the local and 
Federal levels, believe that our Nation can always do better. 
That is the spirit of this conversation.
    Policy relative to shifting from a first responder strategy 
to a more balanced prevention strategy is the issue as I see 
it, and the only way we are going to prevent any form of a 
terrorist attack is if the local resources are fully integrated 
with the Federal resources when it comes to intelligence 
information. This means that the national policy that is under 
the control of Mr. Allen and the Secretary of Homeland Security 
should be intact and remain as it is. But the advice of the 
local law enforcement officials throughout our Nation needs to 
be brought to the table.
    Clearly, funding becomes an arguable strategy as to how to 
best spend the dollars. I say that our response community--we 
are a part of it, law enforcement is--has been well-served and 
so has our firefighting systems and our medical systems. But if 
we are going to economize our dollars nationally, we have to 
say, what is cheaper, preventing a terrorist attack or 
responding to one? At what point do we start moving more 
dollars into the prevention side?
    I think that local law enforcement through the LinX program 
has clearly proven that traffic stops are a critical part of 
gathering this kind of information. That can be easily pushed 
up into a national system without violating anyone's civil 
rights, because we have clearly the right to stop people when 
they violate the law, even if it is traffic law.
    The complexity of the task is that there are not 20 dots or 
100 dots. There are millions of potential dots that have to be 
connected. You can't do that without this full build-out of the 
regional intelligence centers as nodes to all the other police 
departments.
    I am not asking for a small police department to have an 
intelligence center. They don't need one. But they should be in 
partnership with those of us that have an intelligence center, 
and their liaison officers can work in a trained fashion to 
make sure that civil rights are not violated and that 
information is gathered in a format that is sensible.
    Analysts will be able to look at that data for the sake of 
preventing a terrorist attack or alerting an investigation. 
Those are the two things. Alerting an investigation. As was 
indicated by all panel members of this committee, when do you 
do something that is obvious, when someone asks for flight 
training in a flight school and says I am not interested in 
taking off or landing. All I want to know is how to fly the 
plane when it is--I mean, that is such an obvious thing that it 
defies common sense that that wouldn't be acted upon. But 
somehow that got lost because of the lack of robust analytical 
participation.
    The backup system is you have got more than one analyst 
looking at the same stuff, and the policy issue is you have got 
more than one reviewer at the top looking at the same stuff. 
All we are saying at the local level is we want to be part of 
the process of reviewing some of the more critical stuff, 
especially if it affects New York, especially if it affects 
Chicago, especially if it affects the District of Columbia, and 
especially if it affects Los Angeles. Because the theory is the 
more you know and the more who have the responsibility to know 
know, then everyone gets blamed if it goes wrong.
    But, currently, if we don't know locally, I can assure you 
when the next one occurs and it is in Los Angeles and I don't 
know and Chief Bratton doesn't know, then we are going to blame 
the Feds.
    Ms. Harman. Okay.
    Mr. Baca. So intelligence gathering is not only good 
theory, it is good management theory.
    Ms. Harman. Thank you.
    I would just amend that to say this isn't about who we are 
going to blame next time. It is about how we are going to 
prevent the next one. Then we don't have to blame anyone.
    Mr. Porter, Mr. McKay, do you have any additional thoughts? 
We have a vote on the floor, but we have enough time to hear 
from each of you.
    Mr. Porter. A brief rejoinder to Mr. Leiter. But let me 
introduce it by noting that I am in probably a unique position 
where I meet with Mr. Allen probably monthly as a State and 
local official, and I also meet with Mr. Leiter on a bimonthly 
basis at the ITACG Advisory Council meetings. As I pointed out 
earlier, they do listen. They take notes as we speak.
    But I think sometimes we all get caught up in the business 
of the agenda, and we sometimes don't hear one another. 
Sometimes we speak past one another.
    My colleagues at the State and local level still tell me we 
have a long way to go to get information out to the outer 
reaches, and it is a challenge with respect to the domestic 
issues, and I look forward to further communication about that. 
Thank you.
    Ms. Harman. Thank you.
    Mr. McKay.
    Mr. McKay. Thank you, Madam Chair.
    I think that the prior panel has underscored the point that 
I tried to make to the subcommittee earlier. I would just urge 
those who are making decisions in Washington, DC, to look at 
the LinX system. Because the question of civil liberties that 
you asked both of the speakers in the prior panel is we have 
run this already. We have taken the records locally. They have 
been--they have migrated into a Federal system. They are in the 
MTAC now, which is the analytical center at NCIS. They have 
passed every legal review of every municipality, county, State 
and the Federal Government. There are no civil liberties issues 
associated with the law enforcement records that are being 
analyzed.
    Intelligence products and perhaps open source information 
is different, and those have to be carefully reviewed and 
absolute strict scrutiny paid to the civil liberties and civil 
rights of individuals if they are targeted without a reasonable 
suspicion of a crime. That is the issue.
    Put privacy aside for a moment. We know this can be done 
legally. It has already been carried out in the model program 
in the LinX.
    So I agree with my colleague to my right. I mean, we are 
talking past each other.
    Again, the question I asked before I think remains 
unanswered. Who is in charge of building the local systems and 
migrating them to the Federal Government?
    The first person who told me that the most important record 
of any investigator is the small record. It is the seatbelt 
violation, believe it or not. It is the traffic offense. That 
was Sheriff Baca. I think every Federal agent would agree with 
him.
    Ms. Harman. Thank you very much.
    If any panel member wants to make one additional sentence 
or comment, please go ahead.
    I just want to thank all of our witnesses. I think this has 
been a conversation, which is rare, in a hearing format. Our 
goal is to make that conversation as robust as possible and 
make it two ways, from Federal down to local and from local 
back to Federal.
    The ITACG is a huge improvement over where we were. I will 
see our first four ITACG members later today as they leave. But 
growing to 10 is a good start, Mr. Leiter. Growing to more than 
10 is a better idea, Mr. Leiter. But I do want to congratulate 
you, not just pick on you, for visible progress under your 
watch.
    Any other comments?
    Mr. Dicks.
    Mr. Dicks. I just want to say thank you. It has been very 
enlightening. We still have a lot of work to do, but I think we 
are making progress. I think we have got the attention of both 
sides.
    I agree. I think some of this is we are talking past each 
other. We have got to figure out a way not to do that and to 
end that and to come to grips with the remaining issues.
    Thank you.
    Ms. Harman. Thank you all. The hearing stands adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
